r
i

4*

APPENDIX-E

EXHIBIT

V

https://ecf.scd.circ4.dcn/cgi-bin/DisplayReceipt.pl7663905133400...

CM/ECF - scd-Display Receipt

MIME-Version:1.0
■ From:SCDEfilingstat@scd.uscourts.gov
To:scd_ecf_nef@localhost.localdomain
Bcc:
--Case Participants: Melody Jane Brown (abennett@scag.gov, mbrown@scag.gov), Susannah R Cole
(ddalessio@scag.gov, scole@scag.gov), Chief Judge R Bryan Harwell (harwell_ecf@scd.uscourts.gov)
--Non Case Participants:
--No Notice Sent:
Message-Id:<8972383@scd.uscourts.gov>
Subject:Activity in Case 9:18-CV-00748-RBH Barton v. Lewis Order on Report and Recommendation

Content-Type: text/html
This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND to this e-mail because the
mail box is unattended.
*** NOTE TO PUBLIC ACCESS USERS *** There is no charge for viewing opinions.
U.S. District Court
District of South Carolina
Notice of Electronic Filing
The following transaction was entered on 3/29/2019 at 10:51 AM EDT and filed on 3/29/2019
Case Name:
Barton v. Lewis
9:18-cv-00748-RBH
Case Number:
Filer:
WARNING: CASE CLOSED on 03/29/2019
Document Number: 71
Docket Text:
ORDER adopting Report and Recommendations of Magistrate Judge Bristow Marchant. The Court
grants Respondent's second motion for summary judgment [ECF No. 29] and dismisses
Petitioner’s ❖ 2254 petition [ECF No. 1] with prejudice. Furthermore, the Court denies Petitioner's
motion for a certificate of appealability [ECF No. 63]. Signed by Chief Judge R Bryan Harwell on
03/29/2019. (egra, )
9:18-cv-00748-RBH Notice has been electronically mailed to:
Melody Jane Brown
Susannah R Cole

mbrown@scag.gov, abennett@scag.gov
scole@scag.gov, ddalessio@scag.gov

9:18-cv-00748-RBH Notice will not be electronically mailed to:
Bobby Joe Barton
163629
Perry Correctional Institution
430 Oaklawn Rd
Pelzer, SC 29669
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1091130295 [Date=3/29/2019] [FileNumber=8972381-0
] [8c5ebc2879a898dbce5b7fa5fbf5f78e0799dcbce404dcedb2970251c6d2b0783e4
2293382433322a62b360e0df786a0d929065cbef9b373130f8101542760eb]]

1 of 1

3/29/2019, 11:02 AM

PER CURIAM:
Bobby Joe Barton seeks to appeal the district court’s order accepting the
recommendation of the magistrate judge and denying relief on Barton’s 28 U.S.C. § 2254
petition. The order is not appealable unless a circuit justice or judge issues a certificate of
appealability. See 28 U.S.C. § 2253(c)(1)(A). A certificate of appealability will not issue
absent “a substantial showing of the denial of a constitutional right.”

28 U.S.C.

§ 2253(c)(2). When the district court denies relief on the merits, a prisoner satisfies this
standard by demonstrating that reasonable jurists could find the district court’s assessment
of the constitutional claims debatable or wrong. •ee Buckv. Davis, 137 S. Ct. 759, 773-74
(2017).) When the district court denies relief on procedural grounds, the prisoner must
demonstrate both that the dispositive procedural ruling is debatable and that the petition
states a debatable claim of the denial of a constitutional right. Gonzalez v. Thaler, 565 U.S.
134, 140-41 (2012) (citing Slack v. McDaniel, 529 U.S. 473, 484 (2000)).
We have independently reviewed the record and conclude that Barton has not made
the requisite showing. Accordingly, we deny a certificate of appealability, deny leave to
proceed in forma pauperis, deny Barton’s motion to place his appeal in abeyance, and
dismiss the appeal. We dispense with oral argument because the facts and legal contentions
are adequately presented in the materials before this court and argument would not aid the
decisional process.
DISMISSED

2

wvij i_/V_,r -

sl-u

A UgW

i

\_>A \J

Answers to Complai
9:18-cv-00748-RBH-BM Barton v. Lewis
PRISONER,PROSE
U.S. District Court
District of South Carolina
Notice of Electronic Filing
The following transaction was entered by Cole, Susannah on 7/5/2018 at 2:34 PM EDT and filed on
7/5/2018
Case Name:
Barton v. Lewis
Case Number:
9:18-CV-00748-RBH-BM
Filer:
Scott Lewis
Document Number: 30
Docket Text:
RETURN and MEMORANDUM to Petition for Writ of Habeas Corpus [1] Petition for Writ
of Habeas Corpus filed by Scott Lewis. (Attachments: # (1) State Court Documents Atth
1: Indictment, # (2) State Court Documents Atth 2: Trial Transcript of August 9-10, 2010,
# (3) State Court Documents Atth 3: Final Brief of Appellant, # (4) State Court
Documents Atth 4: Final Brief of Respondent, # (5) State Court Documents Atth 5:
Appendix to Writ of Certiorari, # (6) State Court Documents Atth 6: Petition for Writ of
Certiorari, # (7) State Court Documents Atth 7: Return to Petition for Writ of Certiorari, #
(8) State Court Documents Atth 8: Order Denying Petition for Writ of Certiorari, # (9)
State Court Documents Atth 9: PCR Application, filed September 12, 2014, # (10) State
Court Documents Atth 10: Motion to Amend and Supplement Pleadings, # (11) State
Court Documents Atth 11: Return to PCR Application, # (12) State Court Documents
Atth 12: Appointment of Counsel, # (13) State Court Documents Atth 13: Objections
Placed on the Record, # (14) State Court Documents Atth 14: Motion to preserve Record,
# (15) State Court Documents Atth 15: Motion to Supplement Pleading, # (16) State
Court Documents Atth 16: Motion to Relieve Counsel, # (17) State Court Documents Atth
17: Transcript, PCR Evidentiary Hearing of Feb 18, 2016, # (18) State Court Documents
Atth 18: Order Relieving Counsel, # (19) State Court Documents Atth 19: Order Relieving
Counsel, # (20) State Court Documents Atth 20: Motion for Reconsideration, # (21) State
Court Documents Atth 21: Order Denying Motion for Reconsideration, # (22) State Court
Documents Atth 22: Motion to Relieve Counsel/proceed Pro Se, # (23) State Court
Documents Atth 23: Return to Motion to be Relieved, # (24) State Court Documents Atth
24: Order Warning Petitioner of Risks, # (25) State Court Documents Atth 25: Order
Allowing Petitioner to Proceed Pro Se, # (26) State Court Documents Atth 26: Motion to
Challenge Transcript, # (27) State Court Documents Atth 27: Order of Supreme Court
Remanding for Hearing on Accuracy of Transcript, # (28) State Court Documents Atth
28: Transcript of Hearing Challenging the Accuracy of the PCR Hearing Transcript, #
(29) State Court Documents Atth 29: Order Requiring Filing of Petition in Thirty Days, #
(30) State Court Documents Atth 30: Petition for Writ of Certiorari, # (31) State Court
Documents Atth 31: State's Motion to Compel, # (32) State Court Documents Atth 32:

https ://ecf.scd.uscourts.gov/cgi-bin/Dispatch.pl?821471418685819

7/5/2018

i ag,v* z, ui u

JWU

Order Denying Petition
Certiorari, # (33) Supporting Dou_.nents Atth 33: Filed
Remittitur, # (34) Certificate of Service)(Cole, Susannah)
9:18-cv-00748-RBH-BM Notice has been electronically mailed to:
Melody Jane Brown
Susannah R Cole

mbrown@scag.gov, tbrailey@scag.gov
scole@scag.gov, cmack@scag.gov

9:18-cv-00748-RBH-BM Notice will not be electronically mailed to:
Bobby Joe Barton
163629
Perry Correctional Institution
430 Oaklawn Rd
Pelzer, SC 29669
The following document(s) are associated with this transaction:

•

Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=l 091130295 [Date=7/5/2018] [FileNumber=8513986-0]
[5a659e6d4eeadff424a6a5d5e46e 1429e69247777ec5e 13bc 1 c61742f9ad9b9bb9e 1
090f53f9cc483a8dae356698442a59aecel5c84468ebcf719660300e8cfb]]
Document description:State Court Documents Atth 1: Indictment
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID= 1091130295 [Date=7/5/2018] [FileNumber=8513986-l]
[35618affc011331d2dbde8b00215b8b7c316a35c98d9bla3dla48b893e410b9d4a35
d7dbd5130f88b2e 12456f3e 166b6066fb2fcada6fab01 c 103al Ic72a3ade]]
Document description: State Court Documents Atth 2: Trial Transcript of August 9-10, 2010
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID= 1091130295 [Date=7/5/2018] [FileNumber=8513986-2]
[ 166a0fd518c26287bdfd0e20ef709f0f3cba63ce414f6a769ea9941 fb6200f629505
al66d3bc90b4f658f448cf80cla23359df5ebd9422beb56be2073441e67d]]
Document description: State Court Documents Atth 3: Final Brief of Appellant
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID= 1091130295 [Date=7/5/2018] [FileNumber=8513986-3]
[adacefbbf64a2b38e9acadfa77823f80c37291e4182d80e06450a80a352fad01el78
6316e4654dbe3da2d04e345 83e9a560ae2df2d6e3135168d 12af4101 ed3e]]
Document description: State Court Documents Atth 4: Final Brief of Respondent
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID= 1091130295 [Date=7/5/2018] [FileNumber=8513986-4]
[al01affd2043182dc80001cba6fc5aaa0bcef67800c5alb4ae045b4570d0503ddb8c

https ://ecf. scd.uscourts.gov/cgi-bin/Dispatch.pl7821471418685819

7/5/2018

APPENDIX-F
EXHIBIT

FILED: September 4, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-6650
(9:18-cv-00748-RBH)

BOBBY JOE BARTON
Petitioner - Appellant
v.
SCOTT LEWIS, Warden
Respondent - Appellee

JUDGMENT
In accordance with the decision of this court, a certificate of appealability is
denied and the appeal is dismissed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-6650
BOBBY JOE BARTON,
Petitioner - Appellant,
v.
SCOTT LEWIS, Warden,
Respondent - Appellee.

Appeal from the United States District Court for the District of South Carolina, at Beaufort.
R. Bryan Harwell, Chief District Judge. (9:18-cv-00748-RBH)
Submitted: September 1, 2020

Decided: September 4, 2020

Before MOTZ and AGEE, Circuit Judges, and SHEDD, Senior Circuit Judge.
Dismissed by unpublished per curiam opinion.
Bobby Joe Barton, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

ILED: October 21, 2020

(-

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-6650
(9:18-cv-00748-RBH)

BOBBY JOE BARTON
Petitioner - Appellant
v.
SCOTT LEWIS, Warden
Respondent - Appellee

ORDER
The court grants the motion to extend filing time and extends the time for
filing the petition for rehearing to November 20, 2020. Appellant is advised that
no further extensions will be granted absent a showing of extraordinary
circumstances.
For the Court-By Direction
I si Patricia S. Connor. Clerk

F

D: November 18, 2020

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-6650
(9:18-cv-00748-RBH)

BOBBY JOE BARTON
Petitioner - Appellant
v.
SCOTT LEWIS, Warden
Respondent - Appellee

ORDER
The court grants the motion to extend filing time and extends the time for
filing the petition for rehearing to December 07, 2020. No further extensions will
be granted absent a showing of extraordinary circumstances.
For the Court—By Direction
/s/ Patricia S. Connor. Clerk

r .

fED: December 7, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-6650
(9:18-cv-00748-RBH)
BOBBY JOE BARTON
Petitioner - Appellant
v.
SCOTT LEWIS, Warden
Respondent - Appellee

STAY OF MANDATE UNDER
FED. R. APP. P. 41(d)(1)
Under Fed. R. App. P. 41(d)(1), the timely filing of a petition for rehearing
or rehearing en banc or the timely filing of a motion to stay the mandate stays the
mandate until the court has ruled on the petition for rehearing or rehearing en banc _
or motion to stay. In accordance with Rule 41(d)(1), the mandate is stayed pending
further order of this court.
/s/PatriciaS. Connor, Clerk

1

F

): December 30, 2020

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-6650
(9:18-cv-00748-RBH)

BOBBY JOE BARTON
'%■

Petitioner - Appellant
v.
SCOTT LEWIS, Warden
Respondent - Appellee

ORDER
The petition for rehearing en banc was circulated to the full court. No judge
requested a poll under Fed. R. App. P. 35. The court denies the petition for
rehearing en banc.
For the Court
Is/ Patricia S. Connor, Clerk

k

r

FILED: January 7, 2021

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-6650
(9:18-cv-00748-RBH)

BOBBY JOE BARTON
Petitioner - Appellant
v.
SCOTT LEWIS, Warden
Respondent - Appellee

MANDATE
The judgment of this court, entered September 4, 2020, takes effect today .
This constitutes the formal mandate of this court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
/s/Patricia S. Connor. Clerk

1

9:18-CV-00748-RBH

Date Filed 03/29/19

Entry Number 71

Page 1 of 24

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
BEAUFORT DIVISION
Bobby Joe Barton,
Petitioner,
v.

Scott Lewis, Warden,
Respondent.

)
)
)
)
)
)
)
)
)

Civil Action No.: 9:18-cv-748-RBH

ORDER

This matter is before the Court on the Report and Recommendation (“R&R”) of United States
Magistrate Judge Bristow Marchant.1 [ECF No. 54], The Magistrate Judge recommends the Court
grant Respondent’s second motion for summary judgment [ECF No. 29] and dismiss Petitioner’s pro
se petition under 28 U.S.C. § 2254 (the “§ 2254 petition”) [ECF No. 1] with prejudice. Also pending
is Petitioner’s motion for a certificate of appealability [ECF No. 63].
Background2
Petitioner3, a state inmate at the SCDOC’s Perry Correctional Institution, brings this action pro
se for a writ of habeas corpus by a person in state custody against Respondent. See Pet. at 1 [ECF No.

1
The Magistrate Judge issued the R&R in accordance with 28 U.S.C. § 636(b)(1)(B) and Local Civil Rule
73.02 (D.S.C.), reviewing the § 2254 petition pursuant to the screening provisions of 28 U.S.C. §§ 1915(e)(2) and
1915 A. The Court is mindful of its duty to liberally construe the pleadings of pro se litigants. See Gordon v. Leeke,
574 F.2d 1147, 1151 (4th Cir. 1978); but see Beaudett v. City ofHampton, 775 F.2d 1274, 1278 (4th Cir. 1985)
(“Principles requiring generous construction of pro se complaints are not, however, without limits. Gordon directs
district courts to construe pro se complaints liberally. It does not require those courts to conjure up questions never
squarely presented to them.”).
2
The R&R summarizes the factual and procedural background of this case, as well as the applicable legal
standards. See R&R at 1-8.
3
The R&R’s caption includes Petitioner’s identification number with the South Carolina Department of
Corrections (“SCDOC”) as #182302; however, the § 2254 petition and a search of the SCDOC inmate locator
indicate his identification number is #163629.
See Inmate Search Detail Report,
https://public.doc.state.sc.us/scdc-public/inmateDetails.do?id=%2000163629 (last visited Mar. 21,2019).

9:18-cv-00748-RBH

Date Filed 03/29/19

Entry Number 71

Page 2 of 24

13A.

State Court Proceedings

On August 10, 2010, Petitioner was convicted in South Carolina state court of armed robbery
and sentenced to twenty-five years of imprisonment. R&R at 2; Verdict [ECF No. 30-1]; Trial Tr. at
267:10-12, 275:9 [ECF No. 30-2], At trial, he was represented by attorney Susannah C. Ross (“trial
counsel”). R&R at 2. On direct appeal, he was represented by attorney Lanelle Cantey Durant of the
South Carolina Commission on Indigent Defense (“direct appeal counsel”). Id. The South Carolina
Court of Appeals affirmed his conviction and sentence. Id. at 3; Ct. of Appeals Op. [ECF No. 30-5].
The South Carolina Supreme Court denied his petition for writ of certiorari. R&R at 3; Order Denying
Writ [ECF No. 30-8].
Subsequently, Petitioner filed an application for post-conviction relief (“PCR”) in state circuit
court, raising as grounds: (1) ineffective assistance of trial counsel; (2) ineffective assistance of direct
appeal counsel; (3) procedural due process; (4) prosecutorial misconduct; and (5) judicial misconduct.
R&R at 3—4; Appl. for PCR [ECF Nos. 30-9, 30-10, 30-15]. Attorney Caroline Horlbeck (“PCR
counsel”) represented Petitioner dining an evidentiary hearing on his PCR application, which the PCR
judge denied. R&R at 4; Evidentiary Hr’gTr. [ECF No. 30-17]; Order of Dismissal [ECF No. 30-18],
PCR counsel was relieved, and attorney R. Mills Arial, Jr. (also “PCR counsel”), who was subsequently
appointed to represented Petitioner, filed a motion to reconsider [ECF No. 30-20], which was denied.
R&R at 4; J. on Mot. to Recons. [ECF No. 30-21 ]. Petitioner then filed a motion to relieve counsel and
for permission to proceed pro se. R&R at 4; Mot. to Relieve Counsel [ECF No. 30-22], After warning
Petitioner of the dangers of proceeding pro se and the advantages of allowing counsel to continue
representing him, the South Carolina Supreme Court granted Petitioner’s motion. R&R at 4; Orders
2

9:18-cv-00748-RBH

Date Filed 03/29/19

Entry Number 71

Page 3 of 24

[ECF Nos. 30-24, 30-25].
On September 15, 2016, Petitioner filed a pro se motion challenging the accuracy of his PCR
transcript. R&Rat5; Mot. Challenging PCR Tr. [ECF No. 30-26]. The South Carolina Supreme Court
remanded the matter to the PCR judge for a hearing to determine the transcript’s accuracy. R&R at 5;
Remand Order [ECF No. 27], The PCR judge determined there were no inaccuracies. R&R at 5; Hr’g
on Mot. Challenging PCR Tr. [ECF No. 30-28]. Subsequently, Petitioner appealed the PCR court’s
order, raising four grounds alleging the PCR court erroneously rejected his claims that: (1) trial counsel
was ineffective for failing to convey a formal plea offer, keep Petitioner reasonably informed of his
case, and explain the plea offer so he could make an informed decision; (2) trial counsel was ineffective
for failing to object to inadmissible evidence about prior convictions; (3) the prosecution knowingly
used perjured testimony by prosecution witness Patricia Rice (“Rice”); and (4) the prosecution failed
to tell investigators that they must not use Petitioner’s arrest mug shot in its photo array. R&R at 5; Pet.
for Cert. [ECF No. 30-30]. On February 15,2018, the South Carolina Supreme Court denied a petition
for writ of certiorari [ECF No. 30-32], and remittitur was filed with the state trial court on March 7,
2018 [ECF No. 30-33]. R&R at 5-6.
B.

Federal Habeas Proceedings

On or about March 14, 20184, Petitioner timely filed his § 2254 petition, raising seventeen
grounds.5 Pet. at 5—11, 14-18; Resp. in Opp’n to Summ. J. at 2-5 [ECF No. 44], On July 5, 2018,
Respondent filed the instant second motion for summary judgment. [ECF No. 29]. On or about

4
See Houston v. Lack, 487 U.S. 266, 276 (1988) (holding that a prisoner’s pleading is filed at the moment
of delivery to prisoner authorities for forwarding to the district court).
5
As the R&R notes, Petitioner changed the grounds initially pursued in the § 2254 petition, clarifying his
grounds in his response in opposition to Respondent’s second motion for summary judgment. See R&R at 6-8.

3

9:18-cv-00748-RBH

Date Filed 03/29/19

Entry Number 71

Page 4 of 24

November 2, 2018, after receiving three extensions of time, Petitioner filed a response in opposition
[ECF No. 44], and on November 9,2018, Respondent filed a reply thereto. [ECF No. 46]. On or about
November 19,2018, Petitioner filed a sur reply, which he subsequently supplemented twice. [ECF Nos.
48, 50,51],
On December 11, 2018, the Magistrate Judge issued an order denying Petitioner’s requests for
a court-appointed attorney and an evidentiary hearing. [ECF No. 53]. On the same date, the Magistrate
Judge issued the R&R, recommending the Court grant Respondent’s second motion for summary
judgment and dismiss the case with prejudice because: (1) the issues raised in grounds one through five
were adjudicated on the merits in state court, the state court’s decisions on those issues were not
contrary to or an unreasonable application of clearly established federal law, and the decisions were not
unreasonable determinations of the facts in light of the evidence presented, [R&R at 8-33]; and (2)
Petitioner procedurally defaulted on the issues raised in grounds six through seventeen because he failed
to properly pursue them in state court and he cannot overcome the defaults. R&R 33-36. The
Magistrate Judge specifically advised the parties of the procedure for filing objections to the R&R and
the consequences if they failed to do so. R&R at 52-53.
On or about February 11, 2019, after receiving two extensions of time, Petitioner timely filed
objections to the R&R. [ECF No. 62], On the same date, Petitioner filed the pending motion for a
certificate of appealability. [ECF No. 63]. The matters are now ripe for the Court’s consideration.
Standards of Review
A.

R&R

The Magistrate Judge makes only a recommendation to the Court. The Magistrate Judge’s
recommendation has no presumptive weight, and the responsibility to make a final determination
remains with the Court. Mathews v. Weber, 423 U.S. 261, 270-71 (1976). The Court must conduct a
4

9:18-cv-00748-RBH

Date Filed 03/29/19

Entry Number 71

Page 5 of 24

de novo review of those portions of the R&R to which specific objections are made, and the Court may
accept, reject, or modify, in whole or in part, the recommendation of the Magistrate Judge or recommit
the matter with instructions. 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b). However, the Court need
not conduct a de novo review of “general and conclusory objections that do not direct the [Cjourt to a
specific error in the [Magistrate [Judge]’s proposed findings and recommendations.” Orpiano v.
Johnson, 687 F.2d 44,47 (4th Cir. 1982). In the absence of specific objections to the R&R, the Court
reviews only for clear error. Diamond v. Colonial Life & Accident Ins. Co., 416 F.3d 310,315 (4th Cir.
2005).
B.

Section 2254 Petition

The scope of a federal court’s review of a habeas petition under the Antiterrorism and Effective
Death Penalty Act of 1996 (“AEDPA”) is “highly constrained.” Lawrence v. Branker, 517 F.3d 700,
707 (4th Cir. 2008). The Court cannot grant a § 2254 petition “with respect to any claim adjudicated
on the merits in state court” unless the state court decision was “either contrary to, or an unreasonable
application of, clearly established federal law as determined by the [United States] Supreme Court,” id.
(citing 28 U.S.C. § 2254(d)(1)), or if the decision “was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.” Richey v. Cartledge, 653 F.
App’x 178,184 (4th Cir. 2016) (per curiam) (citing 28 U.S.C. § 2254(d)(2)). The Court “must presume
state court findings of fact to be correct unless the petitioner rebuts that presumption by clear and
convincing evidence.” Id. (citing 28 U.S.C. § 2254(e)(1)).
Objections
In his objections, Petitioner asserts the Magistrate Judge erred in: (1) concluding Petitioner
failed to present anything other than conclusory allegations as to his claim that his counsel was
ineffective, Objs. at 3; (2) rejecting Petitioner’s claim that trial counsel was ineffective for failing to
5

9:18-cv-00748-RBH

Date Filed 03/29/19

Entry Number 71

Page 6 of 24

convey a plea offer to him, Objs. at 7; (3) speculating that trial counsel had a legitimate tactical reason
for failing to object to Rice’s testimony where she blurted out, “he had already been incarcerated for
something else .... He had made time for that!” Objs. at 15; (4) rejecting Petitioner’s prosecutorial
misconduct claim that the prosecutor knowingly used perjured testimony and failed to correct it, Objs.
at 19; (5) rejecting Petitioner’s prosecutorial misconduct claim that the prosecutor failed to tell
investigators that they must not use Petitioner’s arrest mug shot in their photo array lineup, Objs. at 28;
(6) characterizing Petitioner’s claim that he was denied the right to confront an adverse witness whose
non-live testimony was used in trial as an ineffective assistance of counsel claim, Objs. at 33-34; (7)
misconstruing Petitioner’s claim that trial counsel failed to object to the prosecutor’s closing statements,
Objs. at 36; (8) rejecting Petitioner’s claim that the 25-page limit for state appellate court briefs
prejudiced him, Objs. at 41; (9) misconstruing that a mug-shot magazine was brought to light in
Petitioner’s state court hearing because the magazine was not admitted into evidence and any reference
to it violated the rules of evidence, id.; and (10) denying Petitioner ’ s request for appointment of counsel
and an evidentiary hearing, Objs. at 43.
Petitioner also makes several objections related to the R&R’s findings on Petitioner’s PCR
counsel, claiming the Magistrate Judge erroneously rejected Petitioner’s claim that PCR counsel failed
to raise ineffective-assistance-of-counsel claims against trial counsel for: (1) creating a conflict of
interest, Objs. at 44; (2) failing to call prosecutor Mark Moyer as a witness to testify about a
conversation he had with Rice while outside the presence of her attorney, Objs. at 46; (3) failing to
investigate the circumstances of the case and possible witnesses present during the crime, Objs. at 48;
(4) failing to put up a defense at trial, Objs. at 49; (5) failing to put the State’s case to an adversarial
testing, Objs. at 51; (6) failing to raise and argue a motion for an evidentiary hearing and motion to
suppress a deadly weapon prior to trial, Objs. at 55; (7) advising Petitioner to not testify at trial, Objs.
6

9:18-cv-00748-RBH

Date Filed 03/29/19

Entry Number 71

Page 7 of 24

at 56; and (8) failing to allege the prosecutor violated ethical rules and Petitioner’s due process, Objs.
at 58.
The Court notes Petitioner has not made specific objections to the R&R as required by 28 U.S.C.
§ 636(b)(1). His objections are general or merely rehash the same arguments made in his petition and
response in opposition to Respondent’s second motion for summary judgment. However, in an
abundance of caution, the Court carefully reviews his objections and conducts a de novo review of
Petitioner’s grounds.
Discussion
A.

Grounds One through Five (Claims Adjudicated on the Merits)
“Before seeking federal habeas review of a claim, a petitioner ordinarily must raise that claim

in the state court, complying with state procedural rules and exhausting available state remedies.” Gray
v. Zook, 806 F.3d 783, 797-98 (4th Cir. 2015). “[I]f a claim is exhausted in state court and not
procedurally defaulted, then it was adjudicated on the merits and is subject to review under the
deferential standards set forth in [28 U.S.C.] § 2254(d).” Id.
The Court cannot grant habeas relief on the following claims unless the state court decision was
“either contrary to, or an unreasonable application of, clearly established federal law as determined by
the [United States] Supreme Court,” Lawrence, 517 F.3d at 707 (citing 28 U.S.C. § 2254(d)(1)), or
if the decision “was based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding.” Richey, 653 F. App’x at 184 (citing 28 U.S.C. § 2254(d)(2)).
1.

Ground One: Trial court erred in denying motion to suppress victim’s identification
of Petitioner because photo lineup was unreliable and unduly suggestive

Petitioner presented this claim on direct appeal, and the South Carolina Court of Appeals
rejected it, holding the trial court properly denied the motion to suppress. See Ct. of Appeals Op. [ECF
7

9:18-cv-00748-RBH

Date Filed 03/29/19

Entry Number 71

Page 8 of 24

No. 30-5 at 4-5]. The trial court held a hearing on the photo lineup pursuant to Neil v. Biggers, 409
U.S. 188 (1972). At a Biggers hearing, the trial court must assess the reliability of a victim’s
identification of a suspect via a photographic lineup. See State v. Liverman, 727 S.E.2d 422,426 (S.C.
2012) (citing Biggers, 409 U.S. at 198) (recognizing two-pronged inquiry to determine whether due
process requires suppression of an eyewitness identification: (1) “whether the identification resulted
from unnecessary and unduly suggestive police procedures”; and (2) “if so, whether the out-of-court
identification was nevertheless so reliable that no substantial likelihood of misidentification existed”).
During Petitioner’s Biggers hearing, an issue arose about a mug-shot magazine featuring Petitioner’s
mug shot that the victim had allegedly seen prior to identification. See Trial Tr. 40:4-89:5. The trial
court determined that the magazine was inadmissible and caused no Biggers issue because the magazine
was not the result of governmental action. Id. at 88:6-89:2.
Later, during the PCR proceedings, Petitioner claimed that trial counsel was ineffective because
she mentioned the magazine twenty-five time and the prosecutor mentioned it eight times when the
magazine had been ruled inadmissible. At the PCR hearing, trial counsel testified that she had
mentioned the magazine to discredit the lineup and the victim’s identification. The PCR court found
this testimony credible and further found that Petitioner failed to meet his burden of proving trial
counsel should have obj ected to any mention ofthe magazine since it was part of trial counsel ’ s defense
and she had a valid strategic reason for mentioning it. The PCR court concluded that Petitioner failed
to prove that trial counsel was deficient or that he was prejudiced. Order of Dismissal [ECF No. 30-18
at 14].
The Court finds that the PCR court’s conclusion that the trial court held a proper Biggers
hearing before denying Petitioner’s motion to suppress was not contrary to, or involved an unreasonable
application of clearly established federal law. Furthermore, nothing indicates that the PCR court’s
8

9:18-cv-00748-RBH

Date Filed 03/29/19

Entry Number 71

Page 9 of 24

decision was based on an unreasonable determination of the facts in light of the evidence presented in
the PCR proceeding. The Court “must presume state court findings of fact to be correct unless the
petitioner rebuts that presumption by clear and convincing evidence.” Richey, 653 F. App’x at 184
(citing 28 U.S.C. § 2254(e)(1)). Petitioner fails to rebut that presumption. Therefore, the Court cannot
grant habeas relief with respect to ground one of his § 2254 petition, and that claim is dismissed.
2.

Ground Two: Trial counsel failed to inform Petitioner of plea offer and its terms and
conditions, depriving his ability to make an informed decision

Petitioner presented this claim in his PCR proceedings and properly exhausted it. A federal
court may grant habeas relief on “ineffective assistance” grounds even when the state court has already
rejected such claims if the state court’s decision was “contrary to, or involved an unreasonable
application of clearly established federal law, as determined by the United States Supreme Court.”
Yarborough v. Gentry, 540 U.S. 1, 5 (2003) (citing 28 U.S.C. § 2254(d)(1)). When the state court’s
application of federal law is challenged, “it must be shown to be not only erroneous, but objectively
unreasonable.” Id. (citations omitted).
“[A]s a general rule, defense counsel has the duty to communicate formal offers from the
prosecution to accept a plea on terms and conditions that may be favorable to the accused.” Missouri
v. Frye, 566 U.S. 134,145 (2012); seeLaflerv. Cooper, 566 U.S. 156,162 (2012) (“Defendants have
a Sixth Amendment right to counsel, a right that extends to the plea-bargaining process.”). “[T]he twopart Strickland v. Washington[6] test applies to challenges to guilty pleas based on ineffective assistance
of counsel.” Lafler, 566 U.S. at 162-63 (citing Hill v. Lockhart, 474 U.S. 52, 58 (1985)). The
performance prong of Strickland “requires a defendant to show ‘that counsel ’ s representation fell below
an objective standard of reasonableness.’” Id. (quoting Hill, 474 U.S. at 57). The prejudice prong of

466 U.S. 668 (1984) (establishing the two-prong test for ineffective assistance of counsel claims).

9

9:18-cv-00748-RBH

Date Filed 03/29/19

Entry Number 71

Page 10 of 24

Strickland requires a defendant to “show that there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different.” Strickland, 466 U.S. at
694. “In the context of pleas a defendant must show the outcome of the plea process would have been
different with competent advice.” Lafler, 566 U.S. at 163 (citations omitted).
Here, the PCR court properly applied Strickland to Petitioner’s claim about the plea offer,
finding that Petitioner failed to meet his burden of proving that trial counsel did not adequately convey
and discuss the plea offer. Order of Dismissal [ECF No. 30-18 at 5-7], Accordingly, the Court finds
that the PCR court’s decision was not contrary to, or involved an unreasonable application of clearly
established federal law. Furthermore, nothing indicates that the PCR court’s decision was based on an
unreasonable determination of the facts in light of the evidence presented in the PCR proceeding. The
PCR court found credible trial counsel’s testimony that she conveyed the plea offer and explained its
terms to Petitioner and that Petitioner rejected the offer and refused to see her for several months, noting
that trial counsel’s file contained the plea offer letter from the State and her notes about meeting with
Petitioner. Id. at 6-7. Accordingly, the PCR court concluded that trial counsel fulfilled her
responsibilities with respect to the plea offer. The Court “must presume state court findings of fact to
be correct unless the petitioner rebuts that presumption by clear and convincing evidence.” Richey, 653
F. App’x at 184 (citing 28 U.S.C. § 2254(e)(1)). Petitioner has not rebutted that presumption.
Therefore, the Court cannot grant habeas relief with respect to ground two of his § 2254 petition, and
that claim is dismissed.
3.

Ground Three: Trial counsel failed to object to Rice’s testimony about Petitioner’s
character

Petitioner presented this claim in his PCR proceedings and properly exhausted it. During the
PCR proceedings, Petitioner claimed that trial counsel was ineffective for failing to object to

10

9:18-CV-00748-RBH

Date Filed 03/29/19

Entry Number 71

Page 11 of 24

inadmissible testimony when Rice testified about a past criminal domestic violence charge she brought
against Petitioner that was subsequently dismissed because he “had already been incarcerated for
something else. He had made time for that. That was in the past. Let it go.” Order of Dismissal [ECF
No. 30-18 at 11 (citing Trial Tr. at 175:7-18, ECF No. 30-2)]. The PCR court found that Petitioner
failed to meet his burden of proving trial counsel should have objected to this testimony. Id. Trial
counsel testified that she made a strategic decision to not object because Rice’s comment was brief and
she did not want to draw more attention to it. Id. The PCR court found trial counsel articulated a valid
reason for not objecting and Petitioner failed to demonstrate he suffered any prejudice as a result of the
testimony. Id. (citing Roseboro v. State, 454 S.E.2d 312, 313 (S.C. 1995); White v. State, 417 S.E.2d
529, 531 (S.C. 1992)). The Court “must presume state court findings of fact to be correct unless the
petitioner rebuts that presumption by clear and convincing evidence.” Richey, 653 F. App’x at 184
(citing 28 U.S.C. § 2254(e)(1)). Petitioner fails to rebut that presumption. Accordingly, nothing
indicates that the PCR court’s decision was based on an unreasonable determination of the facts in light
of the evidence presented in the PCR proceeding. Furthermore, the Court finds that the PCR court’s
decision was not contrary to clearly established federal law. Therefore, the Court cannot grant habeas
relief with respect to ground three of his § 2254 petition, and that claim is dismissed.
4.

Ground Four: Prosecutor knowingly used perjured testimony from Rice
Ground Five: Prosecutor engaged in misconduct by using photos from a mug-shot
magazine in the lineup used to identify Petitioner

The PCR court discussed these issues as ineffective-assistance-of-counsel claims based on
Petitioner’s testimony that trial counsel failed to argue prosecutorial misconduct for using perjured
testimony and a fundamentally unfair photo lineup. Order of Dismissal [ECF No. 30-18 at 10-11,
15-16]. However, in his PCR appeal and instant response in opposition, Petitioner re-characterized
these claims as ones for prosecutorial misconduct. See Pet. for Cert. [ECF No. 30-30 at 18-22,23-25];
11

9:18-cv-00748-RBH

Date Filed 03/29/19

Entry Number 71

Page 12 of 24

Resp. in Opp’n [ECF No. 44 at 16-24,24-29]. The Magistrate Judge noted that straight prosecutorial
misconduct claims are direct appeal issues, and under South Carolina law, “[ijssues that could have
been raised at trial or on direct appeal cannot be asserted in an application for [PCR].” R&R at 29
(citing Portee v. Stevenson, C.A. No.: 8:15-cv-487-PMD-JDA, 2016 WL 690871, at *2 (D.S.C. Feb.
22, 2016)). Technically, these claims are procedurally defaulted. However, since Respondent failed
to raise this, the Magistrate Judge discussed these claims as Petitioner presents them.7
To establish prosecutorial misconduct, Petitioner must demonstrate that “the prosecutor’s
conduct was improper and that it prejudicially affected his substantial rights.” United States v. Pepke,
662 F. App’x 225, 226-27 (4th Cir. 2016) (per curiam) (citing United States v. Caro, 597 F.3d 608,
624—25 (4th Cir. 2010)). The PCR court noted the prosecutor’s testimony that he had no concerns that
Rice perjured herself and had no doubt she was telling the truth. ECF No. 30-18 at 10. The PCR court
found that Petitioner failed to demonstrate Rice offered incorrect or perjured testimony. The Court
“must presume state court findings of fact to be correct unless the petitioner rebuts that presumption
by clear and convincing evidence.” Richey, 653 F. App’x at 184 (citing 28 U.S.C. § 2254(e)(1)).
Petitioner has not rebutted that presumption. Accordingly, nothing indicates that the PCR court’s
decision was based on an unreasonable determination of the facts in light of the evidence presented in
the PCR proceeding. Furthermore, the Court finds that the PCR court’s decision was not contrary to

7
Even if the Court construes grounds four and five as ineffective-assistance-of-counsel claims for PCR
counsel’s failure to raise appellate counsel’s ineffectiveness for failing to pursue prosecutorial misconduct claims
on direct appeal, such alleged deficiency by PCR counsel is one step removed from the scenario where Martinez
applies: “where a claim of ineffective trial counsel asserted in a § 2254 petition is procedurally defaulted because
of a lack of effective legal assistance during the first level of state-court collateral review.” See Portee, 2016 WL
690871 at *3 (“Instead of PCR counsel’s error defaulting the underlying § 2254 ground, it defaulted a basis for
excusing the default of that underlying ground.”). Moreover, any alleged deficiency by PCR counsel relates to
ineffective appellate counsel, not trial counsel, and “Martinez does not apply to ineffective assistance of appellate
counsel claims.” Neumon v. Cartledge, No. 8:14-cv-2256-RMG, 2015 WL 4607732, at *11 n.12 (D.S.C. July 31,
2015). Additionally, Martinez does not apply where the underlying defaulted ground was one of prosecutorial
misconduct. Hilton v. McCall, C/ANo. 1:12-1540-TMC, 2013 WL40117341, at *2 (D.S.C. Aug. 5, 2013).

12

9:18-cv-00748-RBH

Date Filed 03/29/19

Entry Number 71

Page 13 of 24

clearly established federal law. Therefore, the Court cannot grant habeas relief with respect to grounds
four and five of his § 2254 petition, and those claims are dismissed.
B.

Grounds Six through Seventeen (Procedurally Defaulted Claims)
In his objections related to these grounds (listed from page 44 onward of his filing), Petitioner

admits he procedurally defaulted on the claims raised therein; however, he asserts the R&R errs in
recommending that he fails to overcome the default. See Objs. at 44.
Procedural default bars the Court’s consideration of a habeas claim. Richey, 653 F. App’x at
184 (citing 28 U.S.C. § 2254(b)); see Martinez v. Ryan, 566 U.S. 1, 9 (2012) (“Federal habeas courts
reviewing the constitutionality of a state prisoner’s conviction and sentence are guided by rules designed
to ensure that state-court judgments are accorded the finality and respect necessary to preserve the
integrity of legal proceedings within our system of federalism. These rules include the doctrine of
procedural default, under which a federal court will not review the merits of claims, including
constitutional claims, that a state court declined to hear because the prisoner failed to abide by a state
procedural rule.”). To overcome a default, a petitioner must show “sufficient cause for his failure to
raise the claim below and actual prejudice resulting from that failure.” Richey, 653 F. App’x at 184
(citing Coleman v. Thompson, 501 U.S. 722, 750 (1991)).
Here, Petitioner bases his claims in grounds six through nine on the alleged ineffective
assistance of trial counsel; his claims in grounds ten through seventeen are based on the alleged
ineffective assistance of PCR counsel.

13

9:18-cv-00748-RBH

1.

Date Filed 03/29/19

Entry Number 71

Page 14 of 24

Ineffective Assistance of Trial Counsel (Grounds Six through Nine)

Although Petitioner raised the claims in grounds six8 through nine in his initial PCR
proceedings, he failed to pursue them in his PCR appeal. Compare Appl. for PCR [ECF Nos. 30-9,3010, 30-15] (raising these grounds), with Pet. for Writ (raising four unrelated grounds). Because he
failed to preserve these issues, they are procedurally barred from federal review. 28 U.S.C. § 2254(b);
see Sullivan v. Padula, 2013 WL 876689, at *6 (D.S.C. Mar. 8,2013) (citing Smith v. Murray, All U.S.
527,53 3 (1986)) (holding that ineffective-assistance-of-trial-counsel claim not pursued in PCR appeal
was procedurally barred).
To overcome this default, Petitioner must show cause and prejudice. As “cause” for his default
on grounds six through nine, Petitioner points to his pro se status and the state court’s 25-page limit for
briefs, which he contends prevented him from properly pursuing these claims. Resp. in Opp’n at 29-31
(stating Petitioner could litigate only four claims in a 25-page limit with no attorney to assist), 34
(ground six: “because of no attorney [Petitioner] has demonstrated cause and shown prejudice”), 38
(ground seven: “because there was no attorney... and [Petitioner] is a layman[,] he has demonstrated
cause and shown prejudice to defeat procedural bar”), 41 (ground eight: same).9
Petitioner was specifically warned by the state court of the hazards of proceeding pro se, and

8
As the R&R notes, in ground, six, Petitioner alleges a Sixth Amendment Confrontation Clause violation,
claiming he was denied the right to confront an adverse witness, the victim’s brother, whose testimony was used at
trial. R&R at 34 n.6; see Resp. at 31-34. However, during his PCR proceedings, Petitioner presented this as an
ineffective-assistance-of-trial-counsel claim, and the PCR court ruled on that claim as presented. See ECF No. 3 0-18
at 9-10. The R&R correctly recommends that under either posture, this claim is procedurally barred. To the extent
the claim is an alleged Sixth Amendment violation, Petitioner must have raised it on direct appeal, which he did not.
In South Carolina, “[i]ssues that could have been raised at trial or on direct appeal cannot be asserted in an
application for [PCR].” R&R at 29 (citing Portee, 2016 WL 690871 at *2). Construing the claim as one for
ineffective assistance of trial counsel—as the PCR court did—Petitioner procedurally defaulted on it by failing to
raise this claim in his PCR appeal.
9
Petitioner does not specifically argue any cause with respect to the default of ground nine; however, in light
of the Court’s duty to liberally review pro se pleadings, the Court assumes Petitioner intended to make the same
“cause” argument for this ground as he does for grounds six through eight.

14

9:18-cv-00748-RBH

Date Filed 03/29/19

Entry Number 71

Page 15 of 24

he chose to do so anyway. See ECF Nos. 30-24, 30-25. The Court finds that Petitioner’s decision to
proceed pro se and his inability to state his claims within the 25-page limit for briefs do not constitute
cause to excuse his procedural default of grounds six through nine. See Faretta v. California, 422 U.S.
806, 834 n.46 (1975) (“[A] defendant who elects to represent himself cannot thereafter complain that
the quality of his own defense amounted to a denial of ‘ineffective assistance of counsel.’”); see also
Holloway v. Smith, No. 95-7737, 81 F.3d 149 (Table), 1996 WL 160777, at *1 (4th Cir. 1996) (per
curiam) (citing Miller v. Bordenkircher, 764 F.2d 245,251-52 (4th Cir. 1985)) (“[Petitioner] does not
meet the cause and prejudice standard because unfamiliarity with the law and his pro se status do not
constitute adequate justification to excuse his failure to present the claim earlier.”); Petrickv. Thornton,
2014 WL 6626838, at *4 (M.D.N.C. Nov. 21, 2014) (quoting Jones v. Armstrong, 367 F. App’x 256,
258 (2d Cir. 2010)) (“ ‘ [T] he right of self-representation does not exempt a party from compliance with
relevant rules of procedural law. ... [Petitioner’s] pro se status, without more, cannot constitute cause
sufficient to excuse the procedural default. ...”). Accordingly, the Court cannot grant habeas relief
with respect to grounds six through nine of his § 2254 petition, and those claims are dismissed.
2.

Ineffective Assistance of PCR Counsel (Grounds Ten through Seventeen)

Grounds ten through seventeen were not raised in Petitioner’s initial PCR proceedings. See
Appl. for PCR [ECF Nos. 30-9, 30-10, 30-15]. Accordingly, those claims are procedurally barred. 28
U.S.C. § 2254(b); see Cudd v. Ozmint, C/A No. 0:08-2421-RBH, 2009 WL 3157305, at *3 (D.S.C.
Sept. 25, 2009) (holding that issue not considered by PCR court was procedurally barred); see also
White v. Burtt, 2007 WL 709001, at *8 (D.S.C. Mar. 5, 2007) (citing Pruitt v. State, 423 S.E.2d 127,
127-28 (S.C. 1992)) (holding that issue must be raised to and ruled on by the PCR court in order to be
preserved for review). To overcome this default, Petitioner must show cause and prejudice. As “cause”
for his default on grounds ten through seventeen, Petitioner points to the alleged ineffectiveness of his
15

9:18-cv-00748-RBH

Date Filed 03/29/19

Entry Number 71

Page 16 of 24

PCR counsel for failing to raise these grounds. See, e.g., Resp. in Opp’n at 46, 49 (“[Petitioner] has
demonstrate [d] . . . cause to excuse default because [PCR] counsel... was ineffective ... for failing
to raise [ineffective assistance] of trial counsel).
Typically, “[t]he ineffectiveness or incompetence of counsel during Federal or State collateral
post-conviction proceedings” is not a ground for reliefunder § 2254. 28 U.S.C. § 2254(i); see Martinez,
566 U.S. at 9 (“[A]n attorney’s ignorance or inadvertence in a [PCR] proceeding does not qualify as
cause to excuse a procedural default.”). However, under Martinez, a narrow exception permits
inadequate assistance of counsel at initial-review collateral proceedings—“a prisoner’s ‘one and only
appeal’” for a claim of ineffective assistance at trial— to establish cause for his procedural default. Id.
at 8, 9 (quoting Coleman v. Thompson, 501 U.S. 722, 756 (1991)). “Cause” to excuse a default exists
where:
(1) the claim of “ineffective assistance of trial counsel” was a “substantial” claim; (2)
the “cause” consisted of there being “no counsel” or only “ineffective” counsel
during the state collateral review proceeding; (3) the state collateral review
proceeding was the “initial” review proceeding in respect to the “ineffectiveassistance-of-trial-counsel claim”; and (4) state law requires that an “ineffectiveassistance-of-counsel [claim]... be raised in an initial-review collateral proceeding.
Trevino v. Thaler, 569 U.S. 413,423 (2013) (alteration in original) (citing Martinez, 556U.S. at 14-16).
An underlying ineffective-assistance-of-counsel claim is “substantial” if it has ‘some merit.’”
Richey, 653 F. App’x at 184 (quoting Martinez, 566 U.S. at 14). “Relatedly, to show ineffective
assistance, the petitioner must make a ‘substantial’ showing with respect to both counsel’s competency
(first-prong Strickland) and prejudice (second-prong Strickland).” Teleguz v. Zook, 806 F.3d 803, 815
(4th Cir. 2015). To make a substantial showing ofincompetency, the petitioner must demonstrate “‘that
counsel made errors so serious that counsel was not functioning as the counsel guaranteed ... by the
Sixth Amendment.” Id. (quoting DeCastro v. Branker, 642 F.3d 442, 450 (4th Cir. 2011)). To make

16

9:18-cv-00748-RBH

Date Filed 03/29/19

Entry Number 71

Page 17 of 24

a substantial showing of prejudice, the petitioner must demonstrate “that ‘counsel’s errors were so
serious as to deprive [him] of a fair trial, a trial whose result is reliable’ i.e., that there was ‘a
substantial, not just conceivable, likelihood of a different result.” Id. (quoting DeCastro, 642 F.3d at
450).
Accordingly, the Court first examines whether the alleged ineffective assistance of trial counsel
undergirding Petitioner’s ineffective-assistance-of-PCR-counsel claims have “some merit,” thus
demonstrating cause. Ifthe Court finds these claims lackmerit, then there is no “cause” for Petitioner’s
procedural default on grounds ten through seventeen.
a.

Ground Ten: PCR counsel was ineffective for failing to raise trial counsel’s
conflict of interest at trial

Petitioner contends that trial counsel created a conflict of interest because she divulged
Petitioner’s prior relationship with Rice to investigators. Resp. in Opp’n at 47-50. During pre-trial
motions, Petitioner made a pro se motion to relieve trial counsel because of this divulgence, testifying
that he told trial counsel in confidence that he had lived with Rice. Trial Tr. at 7:24-10:22. In response,
trial counsel stated that she did not believe this information was given in confidence and during a
motion to reconsider Petitioner’s bond, she may have asked investigating officer Mike Jarvis whether
he knew Petitioner and Rice had been in a relationship in an effort to persuade the court to reconsider
giving Petitioner a bond. Id. at 10:24-11:23; 12:22-13:11. She further stated that because Rice was
the prosecution’s witness, they would leam this information regardless. Id. at 11:11-13. Prosecutor
Mark Moyer responded that he knew about the relationship independently from Rice, not based on
anything trial counsel said at the bond hearing. Id. at 15:8-16:1. The trial court denied Petitioner’s
motion. Id. at 16:12.
“To establish ineffective assistance of counsel on conflict of interest grounds, a petitioner must

17

9:18-cv-00748-RBH

Date Filed 03/29/19

Entry Number 71

Page 18 of 24

establish that (1) his attorney labored under ‘an actual conflict of interest’ that (2) ‘adversely affected
his lawyer’s performance.’” Mickens v. Taylor, 240 F.3d 348, 355 (4th Cir. 2001) (quoting Cuyler v.
Sullivan, 446 U.S. 335, 348 (1980)). In South Carolina, “[a]n actual conflict of interest occurs where
an attorney owes a duty to a party whose interests are adverse to the defendant[’]s.” State v. Gregory,
612 S.E.2d 449,450 (S.C. 2005). “The mere possibility defense counsel may have a conflict of interest
is sufficient to impugn a criminal conviction.” Id. (citation omitted).
Here, there is no actual conflict of interest because Petitioner’s allegations fail to show that trial
counsel owed any duty to another party. Thus, Petitioner fails to show “some merit” to the claim
undergirding his ineffectiveness-of-PCR-counsel claim in ground ten. Accordingly, he fails to
demonstrate “cause” to overcome his default. Therefore, the Court cannot grant habeas relief with
respect to ground ten of his § 2254 petition, and that claim is dismissed.
b.

Ground Eleven: PCR counsel was ineffective for failing to raise trial counsel’s
failure to call the prosecutor to the witness stand and question him about his
conversation with Rice while she was outside her attorney’s presence
Ground Seventeen: PCR counsel was ineffective for failing to raise trial
counsel’s failure to claim that the prosecutor violated the rules of professional
ethics and cannons of law and denying Petitioner’s due process

Petitioner contends trial counsel was ineffective for failing to call the prosecutor as a witness
to question him about his conversation with Rice. Resp. in Opp’n at 50. Relatedly, he claims trial
counsel was ineffective for failing to claim the prosecutor violated the law and legal ethics for his
conversation with Rice. Id. at 63-64.
With respect to calling the prosecutor as a witness, a defendant who wishes to do so “must
demonstrate a compelling and legitimate reason.” United States v. Regan, 103F.3dl072,1083 (2d Cir.
1997) (citation omitted), cert, denied, 521 U.S. 1106 (1997); see also United States v. Roberson, 897
F.2d 1092,1098 (11th Cir. 1990) (quoting United States v. Dupuy, 760 F.2d 1492,1498 (9th Cir. 1985))
18

9:18-cv-00748-RBH

Date Filed 03/29/19

Entry Number 71

Page 19 of 24

(“As the ... Ninth Circuit has held, courts have properly refused to permit a prosecutor to be called as
a defense witness ‘unless there is a compelling need.’”); United States v. Birdman, 602 F.2d 547,
552-53 (3d Cir. 1979) (collecting cases) (“The courts have shared the legal profession’s disapproval
ofthe double role of advocate-witness. In particular, the federal courts have almost universally frowned
upon the practice of a Government prosecutor testifying at the trial of the case he is prosecuting,
whether for or against the defendant....”). A participating prosecutor should not be called as a witness
“unless all other sources of possible testimony have been exhausted.” United States v. West, 680 F.2d
652, 654 (9th Cir. 1982) (citing United States v. Torres, 503 F.2d 1120, 1126 (2d Cir. 1974)).
Here, trial counsel cross-examined Rice about any bias she had to testify against Petitioner,
including offers from the prosecution to testify in exchange for dismissal of criminal charges against
her, which Rice denied. Trial Tr. 168:25-175:4. Rice herself was a source of testimony to probe her
conversation with the prosecution, and there was no compelling or legitimate reason to call the
prosecutor to the witness stand. Accordingly, trial counsel was not ineffective for failing to call the
prosecutor as a witness.
With respect to any ethical or legal violation, there is no prohibition against a prosecutor
meeting with a witness or co-defendant in a criminal case. There is no indication of any ethical or legal
violations by the prosecutor here. In the absence of any indication of ethical or legal violations by the
prosecutor, trial counsel was not ineffective for failing to claim otherwise.
Petitioner fails to show “some merit” to the claims supporting his ineffectiveness-of-PCRcounsel claim in grounds eleven and seventeen. Accordingly, he fails to demonstrate “cause” to
overcome his default. Therefore, the Court cannot grant habeas relief with respect to grounds eleven
and seventeen of his § 2254 petition, and those claims are dismissed.

19

9:18-cv-00748-RBH

c.

Date Filed 03/29/19

Entry Number 71

Page 20 of 24

Ground Twelve: PCR counsel was ineffective for failing to raise trial counsel’s
failure to investigate the case’s circumstances and possible witnesses
Ground Thirteen: PCR counsel was ineffective for failing to raise trial
counsel’s failure to put up a defense
Ground Fourteen: PCR counsel was ineffective for failing to raise trial
counsel’s failure to put the State’s case to an adversarial testing

Petitioner contends trial counsel was ineffective for various alleged failings, including failure
to investigate, failure to put up a defense, and failure to test the State’s case against him. Resp. in
Opp’n at 53-60. However, the record refutes these claims. For example: (1) Petitioner gave trial
counsel the names of several witnesses, and trial counsel interviewed some of them, but Petitioner did
not ask trial counsel to contact several potential witnesses, Evidentiary Hr’gTr. at 42:5-44:1 [ECFNo.
30-17]; (2) trial counsel objected to the photo lineup used to identify Petitioner, moved to suppress it,
cross-examined the officer who conducted the lineup and the victim who identified Petitioner, and
retained an expert witness who testified about the unreliability of eyewitness identifications, Trial Tr.
40:4-9, 48:16-53:14, 64:15-68:6, 70:21-79:5; (3) cross-examined the responding officer about the
victim’s possible intoxication at the time of the robbery, id. at 152:11-156:5; (4) cross-examined Rice
about her bias to testify against Petitioner, id. at 168:19-175:4; (5) moved for a directed verdict, which
was denied, id. at 208:4-209:1; (6) questioned in closing arguments whether the prosecution met its
burden ofproof, id. at 229:14-245:4; and (7) successfully obtained Petitioner’s acquittal on the weapon
charge, id. at 267:12-15.
Even assuming trial counsel failed to investigate certain witnesses favorable to the defense, raise
additional defenses, and further challenge the State’s case, Petitioner fails to show the likelihood of a
different trial outcome.

Petitioner fails to show “some merit” to the claims supporting his

ineffectiveness-of-PCR-counsel claim in grounds twelve, thirteen, and fourteen. Accordingly, he fails
20

9:18-cv-00748-RBH

Date Filed 03/29/19

Entry Number 71

Page 21 of 24

to demonstrate “cause” to overcome his default. Therefore, the Court cannot grant habeas relief with
respect to grounds twelve, thirteen, and fourteen of his § 2254 petition, and those claims are dismissed.
d.

Ground Fifteen: PCR counsel was ineffective for failing to raise trial counsel ’ s
failure to argue a motion for an evidentiary hearing and to suppress a deadly
weapon

Petitioner contends that trial counsel was ineffective for failing to move for an evidentiary
hearing to suppress a knife introduced into evidence by the prosecution. Resp. in Opp’n at 60-61.
Petitioner was indicted for armed robbery and possession of a weapon during the commission of a
violent crime. The victim testified that when Petitioner attacked him, he held a knife to his throat, even
though the victim could not see it. Trial Tr. at 128:1-3. Rice testified that she was present during the
robbery but because it was dark and Petitioner had his back to her, she could not see a weapon. Id. at
167:1-10. The arresting officer, Johnny Brown, testified that when he arrested Petitioner and patted
him down, he found a knife in one of Petitioner’s front pockets. Id. at 182:5-10. With no objection
from the defense, the prosecution introduced the knife into evidence during investigating officer Mike
Jarvis’s testimony. Id. at 194:6—18. However, the jury acquitted Petitioner of the weapon charge.
Accordingly, Petitioner cannot show that even if trial counsel had made a motion to suppress the
weapon, the outcome of his trial would have been different. Petitioner fails to show “some merit” to
the claims supporting his ineffectiveness-of-PCR-counsel claim in ground fifteen. Accordingly, he fails
to demonstrate “cause” to overcome his default. Therefore, the Court cannot grant habeas relief with
respect to ground fifteen of his § 2254 petition, and that claim is dismissed.
e.

Ground Sixteen: PCR counsel was ineffective for failing to raise trial counsel ’ s
bad advice to Petitioner to not testify in his own defense

Petitioner contends trial counsel was ineffective for failing to properly advise him to testify in
his own defense. Resp. in Opp’n at 61-63. However, the record shows that Petitioner did not want to
21

9:18-cv-00748-RBH

Date Filed 03/29/19

Entry Number 71

Page 22 of 24

testify. The trial court advised Petitioner of his right to testify, and he responded under oath that he and
trial counsel discussed the matter and that he made the decision to remain silent. Trial Tr. at
209:11—210:13. In his response in opposition, Petitioner alleges trial counsel advised him to remain
silent because testifying would allow the prosecution to introduce his past convictions into evidence.
Resp. in Opp’n at 62. However, he alleges no improper threats or coercion.
“Solemn declarations in open court carry a strong presumption ofverity.” Blackledge v. Allison,
431 U.S. 63, 74 (1977). “The subsequent presentation of conclusory allegations unsupported by
specifics is subject to summary dismissal, as are contentions that in the face of the record are wholly
incredible.” Id. (citations omitted); but see United States v. Stevens, No. 96-7899, 129 F.3d 1261
(Table), 1997 WL 716228, at *1-2 (4th Cir. 1997) (per curiam) (remanding case for an evidentiary
hearing after finding federal habeas prisoner’s claim that counsel prevented him from testifying on his
own behalf by threatening him with a more severe sentence if he testified was “potentially meritorious”
because the trial court failed to resolve a factual dispute about the alleged threat).
Even assuming trial counsel failed to properly advise Petitioner about testifying in his own
defense, Petitioner fails to show the likelihood of a different trial outcome given the evidence of his
guilt presented at trial.

Petitioner fails to show “some merit” to the claims supporting his

ineffectiveness-of-PCR-counsel claim in ground sixteen. Accordingly, he fails to demonstrate “cause”
to overcome his default. Therefore, the Court cannot grant habeas reliefwith respect to ground sixteen
of his § 2254 petition, and that claim is dismissed.
In summation, Petitioner fails to show “some merit” to the alleged ineffective assistance of trial
counsel undergirding Petitioner’s ineffective-assistance-of-PCR-counsel claims. Accordingly, there is
no “cause” for Petitioner’s procedural default on grounds ten through seventeen. Therefore, the Court
cannot grant habeas relief on these defaulted grounds, and they are dismissed.
22

9:18-cv-00748-RBH

C.

Date Filed 03/29/19

Entry Number 71

Page 23 of 24

Petitioner’s Requests for an Evidentiary Hearing and Appointment of Counsel
The decision to grant an evidentiary hearing is in the Court’s discretion. Muquit v. McFadden,

Civil Action No.: 8:14-cv-03555-RBH,2016 WL 4613398, at *5 (D.S.C. Sept. 6,2016) (citing Sc/mra
v. Landrigan, 550 U.S. 465,473 (2007)); see Cullen v. Pinholster, 563 U.S. 170,181 (2011) (“[Rjeview
under § 2254(d)(1) is limited to the record that was before the state court that adjudicated the claim on
the merits.”). If a petitioner has failed to develop the factual basis of a claim in state-court proceedings,
the Court will hold an evidentiary hearing only if the facts underlying the claim would be sufficient to
establish by clear and convincing evidence that “but for constitutional error, no reasonable fact finder
would have found the applicant guilty of the underlying offense” and the claim relies on: (1) “a new rule
of constitutional law made retroactive to cases on collateral review by the Supreme Court, that was
previously unavailable”; or (2) “a factual predicate that could not have been previously discovered
through the exercise of due diligence[.]” 28 U.S.C. § 2254(e)(2). Here, the Court has the pertinent
transcripts and filings of the state court proceedings, which it has thoroughly reviewed. There are no
circumstances justifying an evidentiary hearing in this case. Accordingly, Petitioner’s request for a
hearing is denied.
Counsel may be appointed for state prisoners collaterally attacking their convictions under §
2254 to aid the litigant and the Court in the discovery process and during evidentiary hearings or in
exceptional cases. See Gordon v. Leeke, 574 F.2d 1147, 1154 n.3 (4th Cir. 1978); Phagan v. Weber,
Civil Action No. 8:18-564-TMC, 2018 WL 3100018 at *4 (D.S.C. June 25, 2018) (citing Cook v.
Bounds, 518 F.2d 779, 780 (4th Cir. 1975)). “An exceptional case exists when ‘it is apparent... that
a pro se litigant has a colorable claim but lacks the capacity to present it. . . .’” Phagan, 2018 WL
3100018 at *4 (quoting Whisenant v. Yuam, 739 F.2d 160, 163 (4th Cir. 1984)). Because the Court
denies Petitioner’s request for an evidentiary hearing and finds no exceptional circumstances, the Court

23

9:18-CV-00748-RBH

Date Filed 03/29/19

Entry Number 71

Page 24 of 24

denies his request for appointment of counsel.
Certificate of Appealability
A certificate of appealability will not issue absent “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). When the district court denies relief on the merits, a
prisoner satisfies this standard by demonstrating reasonable jurists would find the court’s assessment
of the constitutional claims debatable or wrong. Slack v. McDaniel, 529 U.S. 473, 484 (2000); see
Miller-El v. Cockrell, 537 U.S. 322,336-38 (2003). When the district court denies reliefon procedural
grounds, the prisoner must demonstrate both the dispositive procedural ruling is debatable and that the
petition states a debatable claim of the denial of a constitutional right. Slack, 529 U.S. at 484-85. In
this case, the Court concludes that Petitioner has not made the requisite showing of “the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2).
Conclusion
The Court has thoroughly reviewed the entire record, including the R&R and objections, and
the applicable law. For the foregoing reasons, the Court adopts and incorporates by reference the R&R
[ECF No. 54]. Accordingly, the Court GRANTS Respondent’s second motion for summary judgment
[ECF No. 29] and DISMISSES Petitioner’s § 2254 petition [ECF No. 1 ] with prejudice. Furthermore,
the Court DENIES Petitioner’s motion for a certificate of appealability [ECF No. 63].
IT IS SO ORDERED.
s/ R. Bryan Harwell
R. Bryan Harwell
United States District Judge

Florence, South Carolina
March 29, 2019

24

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 1 of 53

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA

BOBBY JOE BARTON,
#182302,
Petitioner,
v.

SCOTT LEWIS, WARDEN,
Respondent.

) CIVIL ACTION NO. 9:18-748-RBH-BM
)
)
)
)
)
)
)
)
)

REPORT AND RECOMMENDATION

)

Petitioner, an inmate with the South Carolina Department of Corrections, seeks a writ
of habeas corpus pursuant to 28 U.S.C. § 2254. The petition was filed pro se on March 14, 2018.1
The Respondent filed a return and second motion2 for summary judgment pursuant
to Rule 56, Fed.R.Civ.P., on July 5, 2018. As the Petitioner is proceeding pro se, a Roseboro order
was entered by the Court on July 6, 2018, advising Petitioner of the importance of a motion for
summary judgment and of the necessity for him to file an adequate response. Petitioner was
specifically advised that if he failed to respond adequately, the Respondent’s motion maybe granted,
thereby ending his case.

'Filing date pursuant to Houston v. Lack, 487 U.S. 266, 270-276 (1988).
Respondent filed an initial motion for summary judgment, which was moot after the Court
granted Petitioner’s motion to amend. See Court Docket No. 14.
1

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 2 of 53

After receiving three extensions of time to reply, Petitioner filed a memorandum in
opposition on November 5, 2018, to which Respondent filed a reply on November 9, 2018. On
November 26,2018, Petitioner filed a second response in opposition to summary judgment, and two
additional attachments (which made corrections to his earlier filing) on December 3 and 4, 2018.
This matter is now before the Court for disposition.
Procedural History
Petitioner was indicted in Greenville County in February 2010 for armed robbery and
possession of weapon during the commission of a violent crime [Indictment No. 2009-GS-23-5047].
See Court Docket No. 30-1.4 Petitioner was represented by Susannah C. Ross, Esquire, and after a
jury trial on August 9-10, 2010, was found guilty of armed robbery and not guilty of the weapon
charge. (R.p. 267). Petitioner was sentenced to twenty-five years imprisonment. (R.p. 275).
Petitioner filed a timely direct appeal. He was represented on appeal by Lanelle Cantey
Durant of the South Carolina Commission on Indigent Defense, Division of Appellate Defense, who
raised the following issues:
Ground One: Did the trial court err in denying [Petitioner’s] motion to suppress the
identification via the photo lineup when the lineup was not reliable because the
alleged victim [Edwin Perez] was inebriated at the time of the incident, and had seen
[Petitioner’s] photo in a “mug shot” magazine prior to the lineup?

3This case was automatically referred to the undersigned United States Magistrate Judge for all
pretrial proceedings pursuant to the provisions of 28 U.S.C. § 636(b)(1)(A) and (B) and Local Rule
73.02(B)(2)(c)and (e), D.S.C. The Respondent has filed a motion for summary judgment. As this
is a dispositive motion, this Report and Recommendation is entered for review by the Court.
4According to the State ’ s evidence, on July25,2009 Edwin Perez was sitting behind his trailer
when two people, the Petitioner and a woman named Patricia Rice, approached. Petitioner allegedly
pushed Perez down, held a knife to his throat, and stole his wallet which contained about $500.00.
See Court Docket No. 30-3, p. 7.
2

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 3 of 53

Ground Two: Did the trial court err in refusing to give [Petitioner’s] complete
Request to Charge #7 on the accuracy of identification?
Ground Three: Did the trial court err in giving the jury a second charge on armed
robbery at the request of the state just to include the words “or representation of a
weapon” when neither the victim nor the co-defendant witness saw the knife allegedly
used?
Ground Four: Did the trial court err in refusing to relieve [Petitioner’s] trial attorney
and appoint another attorney after [Petitioner] argued that his attorney breached his
confidentiality by bringing to light at the preliminary hearing that the co-defendant
witness, Patricia Rice, had lived with [Petitioner] previously?
See Court Docket No.30-3, p. 5.
On January 30, 2013, the South Carolina Court of Appeals affirmed Petitioner’s conviction and
sentence. See Court Docket No. 30-5, pp. 1-5. Petitioner filed a petition for rehearing, which the
South Carolina Court of Appeals denied on March 20,2013. See Court Docket No. 30-5, pp. 6-26.
Petitioner then filed a petition for writ of certiorari with the South Carolina Supreme Court
addressing the same issues. See Court Docket No. 30-6, p. 4. On July 11,2014, the South Carolina
Supreme Court denied the petition. See Court Docket No. 30-8.
On September 12, 2014 (dated August 20, 2014), Petitioner filed an application for
post-conviction relief (“APCR”) in state circuit court. Barton v. State of South Carolina, No. 2014CP-23-5047. See Court Docket No. 30-9. Petitioner raised the following grounds in his APCR:
Ground One: Ineffective assistance of trial counsel;
Ground Two: Ineffective assistance of appellate counsel;
Ground Three: Procedural Due Process; and
Ground Four: Prosecutorial Misconduct.
Petitioner also filed supplemental pleadings in his PCR action addressing additional arguments for

3

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 4 of 53

ineffective assistance of trial counsel, prosecutorial misconduct, and judicial misconduct. See Court
Docket Nos. 30-10, 30-13, 3-14, and 30-15. On March 3, 2015, Caroline Horlbeck, Esquire, was
appointed to represent the Petitioner. See Court Docket No. 13-12. Even so, Petitioner continued
to file numerous pro se motions concerning his application including, but not limited to: 1) obj ections
placed on the record specifically [Court Docket No. 13-13]; 2) motion to preserve the record [Court
Docket No. 13-14]; and 3) motion to amend and supplemental pleadings [Court Docket No. 13-15];
as well as a motion for hearing to relieve his counsel [Court Docket No. 13-16].
An evidentiary hearing was held on Petitioner’s PCR application on February 18,
2016, during which he withdrew his pro se motion to relieve counsel. See Court Docket No. 30-17.
In an order filed March 30, 2016 (dated March 14,2016), the PCR judge denied Petitioner relief on
his APCR. See Court Docket No. 30-18. Thereafter, on April 5, 2016, the PCR judge granted a
motion for counsel to be relieved due to her accepting a position as a full time associate judge on
April 4, 2016, and ordered that alternative counsel be appointed. See Court Docket No. 30-19. On
April 18, 2016, Petitioner’s new counsel, R. Mills Arial, Jr., Esquire, then filed a motion to
reconsider. See Court Docket No. 30-20. The motion to reconsider was denied on April 28, 2016.
See Court Docket No. 30-21. On August 17, 2016, Petitioner filed a motion to relieve counsel and
for permission to proceed pro se. See Court Docket No. 30-22. On August 25, 2016, Appellate
Defender Taylor D. Gilliam filed a return to the motion to be relieved. See Court Docket No. 30-23.
After entering an order specifically warning Petitioner of the dangers of proceeding pro se and of the
advantages of allowing counsel to continue to represent him, the South Carolina Supreme Court
entered an Order on September 19, 2016 granting Petitioner’s request to proceed pro se. See Court
Docket Nos. 30-24 and 30-25.
4

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 5 of 53

On September 15, 2016, Petitioner filed a motion to reconsider his challenge of the
accuracy of the PCR transcript. See Court Docket No. 30-26. On November 9, 2016, the South
Carolina Supreme Court remanded the matter to the PCR judge to hold a hearing to determine the
accuracy of the transcript, and to notify the state Supreme Court of his findings. See Court Docket
No. 30-27. On December 15,2016, a hearing was held and the PCR court determined that there were
no inaccuracies in the transcript of the PCR hearing. See Court Docket Nos. 30-28 and 30-29.
Petitioner then filed a pro se appeal of the PCR court’s order, raising the following
issues:
Ground One: Whether P.C.R. court erred in denying relief to Petitioner when the
court erroneously found counsel was not ineffective for failing to adequately convey
a formal plea offer; failing to keep Petitioner reasonably informed of case and to
explain offer for Petitioner to make an informed decision.
Ground Two: Whether P.C.R. court erred in denying relief to Petitioner when the
court erroneously found counsel was not ineffective for failing to object to
inadmissible evidence through testimony attacking the [Petitioner’s] character [sic]
bring out prior incarcerations!
Ground Three: Whether P.C.R. court erred in denying relief to Petitioner when the
court erroneously found the prosecution did not commit misconduct by knowingly
[sic] use of perjured testimony given by State’s witness Patricia Rice in order to
obtain a conviction, prosecution knew or should have known her testimony was [sic]
perjury.
Ground Four: Whether P.C.R. court erred in denying relief to Petitioner when the
court erroneously found the prosecution did not commit misconduct by failing to
communicate to investigators that they must not use the [Petitioner’s] arrest mug-shot
[sic] its’ photo array lay out.
See Petition for Writ of Certiorari, p. 2 (See Court Docket No. 30-30, p. 3).
After considering several additional motions, the South Carolina Supreme Court denied certiorari on
February 15, 2018. See Court Docket No. 30-32. The Remittitur was sent down on March 7,2018,

5

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 6 of 53

and filed with the Clerk of Court for Greenville County on March 9, 2018. See Court Docket No.
30-33.
Petitioner then filed this federal habeas action. Prior to outlining Petitioner’s issues
that he is currently pursuing, the undersigned is constrained to note that Petitioner has changed the
issues he initially wished to pursue. After filing his initial Petition with attachments and after the
Respondent filed their initial motion for summary judgment, Petitioner filed a motion to amend his
Petition, which was granted. The Respondent then filed a second motion for summary judgment
addressing issues in Petitioner’s original Petition, the attachment to that Petition, and the Amended
Petition. However, in his Traverse in Opposition to Summary Judgment, Petitioner clarifies that the
issues he is pursuing in his Petition for writ of habeas corpus filed in this United States District Court
are as follows:
Ground One: The trial court erred in declining to suppress the victim’s identification
of Petitioner because of out-of-court photographic lineup present to the victim was
unreliable and unduly [sicjsuggested.
Ground Two: Counsel failed to adequately inform the Petitioner of formal plea offer
and its terms and conditions where as to make an informed decision.
Ground Three: Trial counsel failed to object to inadmissible evidence through
testimony attacking the [Petitioner’s] character by bring[ing] out prior incarcerations.
Ground Four: The Prosecutor (Mark Moyer) knowingly used peijured testimony in
order to obtain a conviction, the prosecutor knew or should have known the testimony
was perjured yet [sic] though he did not attempt to correct it.
Ground Five: The P.C.R. court erred in denying relief to Petitioner when the court
erroneously found the prosecution did not commit misconduct by failing to
communicate instructions to investigators that they must not use [Petitioner’s] arrest
mug-shot in its photo array lay out.

6

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 7 of 53

Ground Six5: The Petitioner was denied the right to confront an adverse witness [sic]
who’s testimony was used in form of testimonial but the witness was not present!
Ground Seven: Trial counsel was ineffective for failing to object to the Solicitor’s
closing comments to the jury [sic] ment to inflame the passions to prejudice the jury.
Ground Eight: Trial counsel was ineffective for failing to object to the wording mugshot magazine.
Ground Nine: Trial counsel failed to move for suppression of a weapon dining the
commission of a violate crime in the preliminary stage.
Ground Ten: State appointed attorney was (I. A.) in collateral review proceeding for
failing to raise (I.A.O.C.) at trial and created a conflict-of-interest.
Ground Eleven: State appointed attorney was (I. A.) In collateral review proceeding
for failing to raise (I.A.O.C.) at trial when trial counsel failed to call the prosecutor
(Mark Moyer) to the witness stand to cross-examine about the conversation he had
with the co-defendant “Patricia Rice” while under indictment outside her attorney’s
presence.
Ground Twelve: State appointed attorney was (ineffective assistance) in (I.R.C.P.)
for failing to raise (Ineffective assistance of counsel) at trial, when trial counsel failed
to (investigate any of) the circumstances surrounding the case and possible witnesses
that were present the morning of the crime.
Ground Thirteen: State appointed attorney was (ineffective assistance) at (I.R.C.P.)
for failing to raise (I.A.D.C.) at trial, when trial counsel failed to put up a defense
during the trial stage.
Ground Fourteen: State appointed attorney was (I. A.) at (I.R.C.P.) for failing to raise
(I.A.O.C.) at trial, when trial counsel failed to put the state’s case to an (sic) adversial
testing.
Ground Fifteen: State appointed attorney was (LA.) In (I.R.C.P.) for failing to raise
(I.A.O.C.) at trial when trial counsel failed to argue motion for evidentiary hearing
and motion to suppress a deadly weapon prior to trial.
Ground Sixteen: State appointed attorney was (I.A.) in (I.R.C.P.) for failing to raise
(I.A.O.C.) At trial, when trial counsel rendered bad advice advising [Petitioner] not
5Some of the issues are numbered differently in Respondent’s motion. However, the
undersigned has used Petitioner’s numbering of his issues in his Traverse for clarity purposes
7

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 8 of 53

to testify in his own defense.
Ground Seventeen: State appointed attorney was (LA.) in (I.R.C.P.) for failing to
raise (I.A.O.C.) At trial, when trial counsel failed to raise the prosecutor (Mark
Moyer) violated rules of professional ethics and the cannons of law as a cardinal rule
and denying the [Petitioner’s] due process of law.
See Court Docket No. 44, pp. 2, 6, 12, 16, 24, 31, 34, 37, 41, 47, 50, 53-54, 57, 60-61. These are
therefore the issues addressed herein.
Discussion
Summaryjudgment shall be rendered forthwith ifthe pleadings, depositions, answers
to interrogatories, and admissions on file, together with the affidavits, if any, show that there is no
genuine issue as to any material fact and that the moving party is entitled to a judgment as a matter
of law. Rule 56, Fed.R.Civ.P; see Habeas Corpus Rules 5-7, 11. Although the federal court is
charged with liberally construing pleadings filed by a pro se litigant to allow for the development
of a potentially meritorious case; see Cruz v. Beto, 405 U.S. 319 (1972), and Haines v. Kemer. 404
U.S. 519 (1972); the requirement of liberal construction does not mean that the court can ignore a
clear failure in the pleadings to allege facts which set forth a federal claim, nor can the court assume
the existence of a genuine issue of material fact where none exists. Weller v. Dep't of Social
Services, 901 F.2d 387 (4th Cir. 1990). Here, after careful review and consideration of the filings
of the parties, the undersigned concludes for the reasons set forth hereinbelow that the Respondent
is entitled to summary judgment and dismissal of the Petition.
I.
Direct Appeal Issue
In Ground One, Petitioner alleges the trial court erred in failing to suppress the
8

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 9 of 53

victim’s identification of Petitioner because the victim saw Petitioner’s mug shot in a magazine
before he was identified in a photo lineup, was intoxicated, and told police the perpetrator was
younger than Petitioner’s age. See Court Docket No. 6-1, p. 5. Petitioner presented this claim in his
direct appeal, and the South Carolina Court of Appeals rejected this claim, as follows:
As to [Petitioner’s] motion to suppress the victim's identification, the trial court
properly denied the motion. See State v. Liverman, 727 S.E.2d 422,425 (S.C. 2012)
(“Generally, the decision to admit an eyewitness identification is at the trial judge's
discretion and will not be disturbed on appeal absent an abuse of discretion.”). Here,
the trial court did not abuse its discretion in declining to suppress the identification
and allowing the jury to assess the reliability of the identification because the
photographic lineup was not unduly suggestive. See id. at 138, 727 S.E.2d at 426
(recognizing the two-pronged inquiry to determine whether due process requires
suppression of an eyewitness identification: (1) “whether the identification resulted
from unnecessary and unduly suggestive police procedures,” and (2) “if so, whether
the out-of-court identification was nevertheless so reliable that no substantial
likelihood of misidentification existed” (citing Neil v. Biggers, 409 U.S. 188, 198
(1972)) (emphasis added)); State v. Cheeseboro, 552 S.E.2d 300,307-08 (S.C. 2001)
(“An in-court identification of an accused is inadmissible if a suggestive out-of-court
identification procedure created a very substantial likelihood of irreparable
misidentification.” (citing Manson v. Brathwaite, 432 U.S. 98 (1977))).
[Petitioner] argues the photographic lineup was unreliable because the victim had
prior exposure to the photograph of [Petitioner] that was used in the lineup.
Specifically, [Petitioner] asserts that the victim's identification was tainted by his prior
viewing of a privately published magazine displaying hundreds of mug shots taken
in the Greenville area (“Mug Shot” magazine), including [Petitioner]^ mug shot.
However, there is nothing in the record to show that law enforcement was involved
in the publication or distribution of the magazine or the victim's viewing of the
magazine. The victim testified that there were no representatives of law enforcement
with him when he viewed the magazine. Further, nothing in the record shows any
design by the officer conducting the photographic lineup to reinforce the victim's prior
identification or even any awareness on the officer's part of the prior identification.
“The fallibility of eyewitness evidence does not, without the taint of improper state
conduct, warrant a due process rule requiring a trial court to screen such evidence for
reliability before allowing the jury to assess its creditworthiness.” Perry v. New
Hampshire, 132 S.Ct. 716,728 (2012). In other words, the reliability of an eyewitness
identification may be determined by the jury when there is no improper police
conduct involved. Id. at 726 (“A primary aim of excluding identification evidence
9

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 10 of 53

obtained under unnecessarily suggestive circumstances... is to deter law enforcement
use of improper lineups, showups, and photo arrays, in the first place.... This
deterrence rationale is inapposite in cases ... in which the police engaged in no
improper conduct.” (citation omitted)); see also State v. Tisdale, 527 S.E.2d389,392
(S.C.Ct.App.2000) (“[T]he impetus behind the harsh remedy of exclusion is police
deterrence.... Thus, we hold that the fNeil v. Biggersl analysis is inapplicable where
there is a nongovernmental identification source.”).
In determining the reliability of the victim's identification of [Petitioner], the jury was
allowed to consider the accuracy of the victim's initial description of the robber, the
fact that the victim may have been inebriated at the time of the robbery, and the
victim's prior viewing of “Mug Shot” magazine, all of which were highlighted during
cross-examination of the victim and closing arguments. These circumstances did not
require excluding the victim's identification of [Petitioner] from the jury’s
consideration because none of these circumstances were brought about by improper
police conduct. See Tisdale, 527 S.E.2d at 393 (“The extent to which a suggestion
from nongovernment sources has influenced the memory or perception ofthe witness,
or the ability of the witness to articulate or relate the identifying characteristics of the
accused, is a proper issue for the trier of fact to determine.”).
State v. Barton, No. 2013-UP-058, 2013 WL 8482267, at *1-2 (S.C. Ct. App. Jan. 30, 2013)
The state court applied federal precedent in determining the identification was not
tainted by any government action, when the police had nothing to do with the publication of the
magazine. With regard to the mug shot photograph, Prosecutor Moyer testified at the PCR hearing
that Petitioner had been arrested based on his co-defendant’s statement, and that was how Petitioner’s
photograph got into Mugshot Magazine. After it was in the magazine, the victim saw it. Moyer
testified that he called an investigator and asked him to set up a photograph lineup, but that he was
not involved in the process. Rather, he was sent a copy of the lineup after it occurred. Moyer
testified that he did not know about the Mugshot Magazine at the time of the photo lineup and did
not even know about it until a month or two before trial. See Court Docket No. 13-17, pp. 68-70.
Tracy King, an investigator with the Greenville County’s SheriffDepartment, testified that he did not
have any involvement in Petitioner’s case other than arranging the photographic lineup. King
10

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 11 of 53

testified at trial that there were six similar looking photographs in the lineup that were used from the
actual computer-generated matches to the Petitioner, and that Petitioner’s photograph from the date
of his arrest was used. King testified that the victim examined the photographs and pointed to
Petitioner’s photograph. (R.pp. 41-49). Petitioner’s trial counsel testified that she did not believe
Moyer’s conduct constituted prosecutorial misconduct; see Court Docket No. 13-17, p. 95; and
Petitioner has made no showing that this evidence was tainted by any government action, when the
police had nothing to do with the publication of the magazine or the viewing of the magazine by the
victim. The undersigned can find no reversible error by the state court on this issue.
With regard to Petitioner’s challenge concerning the victim’s initial statement about
the age of the perpetrator or that the victim was intoxicated at the time of the crime, those issues go
to the weight of the evidence, not its admissibility. Pittato v. Hoffner, 722 Fed.Appx. 474, 478 (6th
Cir. 2018) [To the extent that identification changed over time, inconsistencies went only to the
weight of the testimony, not its admissibility]. The transcript shows that at trial, the victim was
questioned on these issues. (R.pp. 120-127). Counsel also attempted to discredit the victim’s
identification on these matters in her closing argument. (R.pp. 234-244). Petitioner has failed to
produce any evidence to show that the trial court erred in the admission of this evidence or that it
violated his federal constitutional rights.
In sum, based on the evidence in the record and the applicable law, Petitioner has not
shown that he was prejudiced or that his conviction violates due process due to these claims, nor has
he shown that the state court's rejection of this claim was unreasonable. Evans v. Smith, 220 F.3d
306,312 (4th Cir.2000) [Federal habeas reliefwill not be granted on a claim adjudicated on the merits
by the state court unless it resulted in a decision that was based on an unreasonable determination of
11

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 12 of 53

the facts in light of the evidence presented in the state court proceeding]; Williams v. Taylor, 529
U.S. 362 (2000); Bell v. Jarvis, 236 F.3d 149, 157-158 (4th Cir.2000)(en banc), cert denied, 112
S.Ct. 74 (2001); 28 U.S.C. § 2254(c)( ^[Determination of a factual issue by the state court shall be
presumed correct unless rebutted by clear and convincing evidence], Petiioner has also failed to
show any violation of federal constitutional law. Smith v. North Carolina, 528 F.2d 807,809 (4th Cir.
1975) [Petitioner bears the burden of proving his allegations when seeking a writ of habeas corpus].
Therefore, this claim is without merit and should be dismissed.
II.
(PCR Court Issues)
Petitioner raises numerous ineffective assistance of counsel claims in Grounds Two,
Three, and Seven through Seventeen. Petitioner also raises two issues of prosecutorial misconduct
in Grounds Four and Five, which are discussed herein as ineffective assistance claims. See,
discussion, infra.
Petitioner’s ineffective assistance of counsel claims in Grounds Seven through
Seventeen were procedurally defaulted at the PCR court level and/or in the PCR appellate
proceedings6. These issues have therefore been addressed separately. See discussion, infra. With
6With regard to Grounds Ten through Seventeen, Petitioner lists these issues as ineffective
assistance of PCR counsel claims. See Petitioner’s Traverse in Opposition to Summary Judgment.
However, if Petitioner actually intended to pursue these claims as ineffective assistance of PCR
counsel claims, they do not concern Petitioner’s underlying conviction. Rather, they concern alleged
errors in his state collateral proceedings, and such claims are not a basis for federal habeas relief since
Petitioner (except for the limited Martinez v, Ryan, 566 U.S. 1, 9-10 (2012) exception) has no
constitutional right to effective assistance of PCR counsel. See Murray v. Giarratano, 492 U.S. 1,13
(1989). Alleged infirmities in PCR proceedings do not state a basis for federal habeas relief. See
Bryant v. Maryland, 848 F.2d 492, 493 (4th Cir. 1988) [finding claims of error occurring in a state
post-conviction proceeding cannot serve as a basis for federal habeas relief]; Nichols v. Scott, 69 F.3d
(continued...)
12

9:18-CV-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 13 of 53

regard to Petitioner’s two remaining ineffective assistance of counsel claims (Grounds Two and
Three) and his two prosecutorial misconduct claims (Grounds Four and Five), these claims were all
pursued in his PCR action, where Petitioner had the burden of proving the allegations in his petition.
Butler v. State. 334 S.E.2d 813. 814 (S.C. 1985). cert, denied. 474 U.S. 1094(1986). The PCR court
rejected these claims, making relevant findings of fact and conclusions of law in accordance with
S.C.CodeAnn. § 17-27-80 (1976). as amended. SeeBartonv. State ofSouth Carolina, No. 2014-CP23-5074. These issues were also raised in Petitioner’s PCR appeal to the State Supreme Court. See
Court Docket Nos. 18-6 and 18-7. Therefore, these four claims are all properly exhausted for
consideration by this Court.
At the PCR hearing, the PCR judge found that: 1) Petitioner stated that trial counsel
brought him a 15-year plea offer in January 2010; 2) Petitioner stated trial counsel never discussed
the terms of the offer with him and never explained the offer was for Petitioner to plead to the lesser
included charge of strong arm robbery; 3) trial counsel testified she received a plea offer (which was
dated January 11, 2010) in which the State would reduce the armed robbery charge to strong arm
robbery and recommend either a sentence of 15 years suspended to 8 years or a plea without a
recommendation; 4) trial counsel testified that she visited the Petitioner on January 29, 2010 to
6(...continued)
1255, 1275 (5th Cir. 1995) [“An attack on a state habeas proceeding does not entitle the petitioner
to habeas relief... .”1, cert, denied, 518 U.S. 1022 (1996); Spradleyv. Dugger, 825 F.2d 1566,1568
(11th Cir. 1987) (per curiam) [“Because claim (1) goes to issues unrelated to the cause of [the]
petitioner’s detention, it does not state a basis for habeas relief.”]; Hassine v. Zimmerman, 160 F.3d
941, 954 (3d Cir. 1998) [stating errors in state post-conviction proceedings are collateral to the
conviction and sentence and do not give rise to a claim for federal habeas relief]. However, based
on Petitioner’s discussion of these issues, it appears that he is simply alleging ineffective assistance
of PCR counsel as the alleged “cause” to overcome the procedural bar of failing to properly raise
these underlying issues in state court, and intended to pursue the underlying issues as ineffective
assistance of trial counsel claims.
13

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 14 of 53

explain the plea offer and that she told him the plea was for strong arm robbery; 5) trial counsel
testified, however, that Petitioner argued with her at the meeting; 6) trial counsel testified that
Petitioner later refused to be transported on March 25, 2010 so they could discuss the case; 7) trial
counsel testified she had explained the sentence ranges to the Petitioner for both armed robbery and
strong arm robbery; 8) trial counsel testified the Petitioner never told her either that he wanted to
accept this plea offer or that he wanted to plead guilty;
9) Petitioner failed to meet his burden of proving plea counsel did not adequately
convey and discuss the plea offer; 10) trial counsel testified she conveyed the plea offer and explained
its terms to Petitioner; 11) trial counsel testified, however, that the Petitioner rejected the offer and
then refused to see her for several months; 12) trial counsel’s testimony was more credible than the
Petitioner’s on this issue; 13) trial counsel’s file contained both the plea offer letter from the State
and her notes about her meeting with the Petitioner; 14) trial counsel also had a specific recollection
of relaying the offer to the Petitioner and Petitioner opting to refuse it; 15) trial counsel fulfilled her
responsibilities in this regard;
16) Petitioner stated that trial counsel refused to keep him reasonably informed of the
status of his case; 17) Petitioner stated trial counsel stopped visiting him at the jail; 18) trial counsel
testified that Petitioner refused to see her for several months; 19) trial counsel testified it was her
practice to make notes if a client requested a jail visit and she did not indicate her file had any such
notes; 20) Petitioner failed to meet his burden of proving trial counsel did not keep him informed
about the status of his case; 21) trial counsel testified the Petitioner refused to see her for several
months after he rejected the plea offer; 22) trial counsel testified that it was difficult to interact with
the Petitioner and that it was difficult to explain things to the Petitioner that he did not want to hear;
14

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 15 of 53

23) trial counsel’s testimony was credible; 24) if there was any breakdown in communication
between the Petitioner and trial counsel in this case, it was due to Petitioner’s conduct;
25) Petitioner stated that he requested a copy of the discovery material prior to trial
and did not receive all of it; 26) trial counsel testified that she filed discovery motions, received those
materials, and reviewed them with the Petitioner on October 5, 2009; 27) trial counsel testified she
made a copy of the discovery material and sent it to the Petitioner on October 16,2009; 28) Petitioner
failed to meet his burden of proving he was not provided discovery materials in this case; 29) trial
counsel testified she reviewed the discovery materials with the Petitioner and then sent him a copy
ofthe materials shortly thereafter; 30) trial counsel ’ s testimony was more credible; 31) even assuming
arguendo that the Petitioner did not receive the discovery materials, he failed to demonstrate he
suffered any prejudice as a result;
32) Petitioner stated trial counsel should have obj ected to testimony regarding Patricia
Rice’s prior conviction for providing a false statement; 33) Petitioner stated the assistant solicitor,
Moyer, violated the rules by eliciting this testimony and that he was prejudiced as a result; 34) Moyer
testified he ran a RAP sheet for Rice and provided it to trial counsel; 35) trial counsel testified that
there was no reason to object to testimony that Rice had a prior conviction because this was helpful
to the defense case; 36) Petitioner failed to meet his burden of proving trial counsel should have
objected to Rice’s prior conviction; 37) on direct examination, Rice admitted she had a 2008
conviction “for lying to police about [her] name”; 38) on cross-examination, trial counsel questioned
Rice about this prior conviction and had her admit she gave a false name to police to avoid trouble;
39) the PCR court agreed with trial counsel’s testimony that there was no basis to object to this line
of questioning; 40) this line of questioning was helpful to the defense case, as it clearly placed Rice’s
15

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 16 of 53

credibility at issue; 41) Petitioner failed to meet his burden on this issue;
42) Petitioner stated the victim only spoke Spanish and that the victim’s brother
interpreted for him to police officers; 43) trial counsel noted that the victim’s brother was on the
State’s witness list but did not know why he was not called; 44) trial counsel testified she did not
believe the victim’s brother would have helped the defense case; 45) the Petitioner failed to meet his
burden of proving trial counsel should have argued a violation of the Confrontation Clause; 46) the
PCR court found that there was no violation of the Confrontation Clause in this case; 47) as such, the
PCR court found trial counsel was not deficient in failing to raise a Confrontation Clause argument;
48) regardless, the PCR court examined the trial transcript and found trial counsel’s testimony
credible that she did not believe the victim’s brother’s testimony would have had an impact on the
defense case; 49) the Petitioner failed to demonstrate he suffered from any prejudice from the lack
of a Confrontation Clause argument;
50) the Petitioner stated Moyer met with Rice at the jail; 51) the Petitioner stated Rice
was with him the night of the robbery - contrary to her trial testimony - and that he provided trial
counsel with the names of witnesses who could support his story; 52) Moyer testified he had no
concerns that Rice perjured herself and that he had no doubts she was telling the truth; 53) Aaron
Jones, Jr. stated he recalled seeing the Petitioner and Rice around 1:15 a.m. on July 25, 2009; 54)
Jones stated he saw them together for 30 minutes that night; 55) Jones admitted he was on drugs at
the time; 56) when asked on cross-examination why he could recall that day in particular, Jones
responded “that’s a good question”; 57) trial counsel testified Petitioner told her Moyer met with Rice
and that she confirmed this; 58) trial counsel testified that there was a letter in her file from Moyer
to Rice’s attorney; 59) Petitioner failed to meet his burden of proving trial counsel should have
16

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 17 of 53

objected because Rice perjured herself at trial; 60) the PCR court noted there is no prohibition against
the prosecutor meeting with a co-defendant in a criminal case; 61) regardless, the PCR court found
the Petitioner failed to demonstrate Rice offered incorrect or peijurious testimony; 62) while Jones
testified he recalled seeing the Petitioner and Rice together for a 30 minute period on a specific date
more than 6 years ago, the PCR court did not find that testimony to be credible; 63) as such, the
Petitioner failed to present any credible evidence to support his allegation trial counsel should have
objected to Rice’s testimony about her whereabouts after the armed robbery,
64) Petitioner stated trial counsel should have objected to inadmissible testimony
when Rice testified about dismissing a CDV charge; 65) Petitioner also stated Rice’s testimony that
he was incarcerated was inadmissible; 66) trial counsel testified Rice ’ s comment was very quick and
she did not object because she did not want to draw attention to it; 67) Petitioner failed to meet his
burden of proving trial counsel should have objected to Rice’s testimony; 68) during redirect
examination, Rice admitted she previously called police because the Petitioner had committed
domestic violence; 69) Rice explained she chose not to prosecute because “[h]e had already been
incarcerated for something else. He had made time for that. That was in the past. Let it go.”; 70)
trial counsel articulated a valid strategic reason for why she did not object to Rice’s testimony - that
she did not want to draw further attention to it; 71) Petitioner also failed to demonstrate he suffered
any prejudice as a result of the testimony;
72) Petitioner stated trial counsel should have objected when Moyer caused the jury
to be inflamed during closing argument; 73) trial counsel testified that there was no reason to object
because Moyer was referring to the victim, not the Petitioner, and this was not a Golden Rule
violation; 74) Petitioner failed to meet his burden of proving trial counsel should have objected
17

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 18 of 53

during Moyer’s closing argument; 75) the PCR court agreed with trial counsel that this testimony
was not an objectionable argument because it was not a Golden Rule argument; 76) rather, it was
merely commentary about the victim’s motivation in this case; 77) the PCR court found Petitioner
failed to prove either that trial counsel was deficient or that he was prejudiced as a result;
78) Petitioner stated trial counsel should have requested a “missing witness”
instruction because the victim’s brother was not a witness at trial; 79) trial counsel testified she did
not contemplate asking for such a jury instruction and that she did not believe such an instruction
would have been helpful to the defense case; 80) Petitioner failed to meet his burden of proving trial
counsel should have requested a “missing witness” jury charge in this case; 81) regardless, the PCR
court found Petitioner failed to articulate the nature of such an instruction, the basis upon which trial
counsel should have argued for its inclusion, or how the lack of this instruction prejudiced his case;
82) Petitioner stated the trial judge ruled in the Biggers7 hearing that the mug shot
magazine could not be admitted at trial; 83) Petitioner argued trial counsel was ineffective because
Moyer mentioned the magazine 8 times at trial and trial counsel mentioned it 25 times; 84) Moyer
testified he did not know about the mug shot magazine until 1-2 weeks before trial; 85) Moyer
testified the victim did not tell him about the mug shot magazine until after the Petitioner had already
been arrested (based on Rice’s statement); 86) Moyer testified Petitioner was arrested in August
2009; 87) trial counsel testified they litigated the admissibility of the mug shot magazine dining the
Biggers hearing; 88) trial counsel testified she mentioned the magazine during trial because it was
central to the defense in attempting to discredit the lineup and the victim’s identification; 89) the PCR
court found Petitioner failed to meet his burden of proving trial counsel should have objected to
7Neil v. Biggers, 409 U.S. 188 (1972).
18

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 19 of 53

mention of the mug shot magazine during his trial; 90) trial counsel testified the existence of the mug
shot magazine was a key part of the defense case; 91) the PCR court found trial counsel’s testimony
was credible; 92) the PCR court examined the trial transcript and found trial counsel articulated a
valid strategic reason for mentioning the mug shot magazine, as she clearly argued to the jury that
the victim only identified the Petitioner as the assailant in a photographic lineup because he had
previously seen the Petitioner’s photograph in a mug shot magazine; 93) Petitioner failed to prove
either that trial counsel was deficient or that he was prejudiced as a result;
94) the Petitioner stated trial counsel should have objected when Investigator Jarvis’
testimony at the trial differed from that at the preliminary hearing; 95) Petitioner stated trial counsel
should have argued that Jarvis perjured himself; 96) trial counsel testified she was present at the
preliminary hearing but did not recall if Jarvis’ testimony was the same at the preliminary hearing
and the trial; 97) Petitioner failed to meet his burden of proving trial counsel should have objected
to Jarvis’ trial testimony and argued he committed perjury; 98) Petitioner failed to prove Jarvis’
testimony at trial differed from that at the preliminary hearing; 99) without such, Petitioner could not
demonstrate trial counsel was deficient in not making an objection; 100) further even assuming
arguendo that trial counsel should have objected, the PCR court found Petitioner failed to
demonstrate he suffered any prejudice as a result;
101) the Petitioner stated trial counsel should have requested a “cautionary instruction
charge” because - as she was an accomplice to the crime - Rice had motivation to testify against him;
102) Petitioner stated the jury should have been advised her testimony should be taken “with some
form of caution”; 103) trial counsel testified she did not request this jury charge and did not believe
there was any value in such a charge; 104) the Petitioner failed to meet his burden of proving trial
19

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 20 of 53

counsel should have requested a “cautionary instruction” jury charge in this case; 105) initially, the
PCR court agreed with trial counsel that such an instruction would not have been merited in this case;
106) Petitioner failed to articulate the nature of such an instruction, the basis upon which trial counsel
should have argued for its inclusion, or how the lack of this instruction prejudiced his case;
107) Petitioner stated trial counsel should have objected to prosecutorial misconduct
because the State’s photographic lineup was fundamentally unfair; 108) Petitioner stated Moyer
should have told the police not to use the same photograph in the lineup as was seen in the mug shot
magazine; 109) Moyer testified the Petitioner was arrested in August 2009; 110) Moyer testified he
told Jarvis to do a photographic lineup in November 2009 and that the lineup was done in January
2010; 111) Moyer testified he did not know about the mug shot magazine when the lineup was put
together; 112) trial counsel testified there was no prosecutorial misconduct in this case; 113) trial
counsel testified Moyer was not aware of the mug shot magazine before the photographic lineup was
made; 114) the PCR court found Petitioner failed to meet his burden of proving trial counsel should
have made an argument about prosecutorial misconduct; 115) the crux of the Petitioner’s argument
was his contention that Moyer should have instructed law enforcement to use a different photograph
for the photographic lineup than the one that was used in the mug shot magazine; 116) both Moyer
and trial counsel, however, testified Moyer did not know about the mug shot magazine when the
photographic lineup was created; 117) their testimony was credible; 118) trial counsel was not
deficient for failing to argue prosecutorial misconduct because the Petitioner failed to demonstrate
the existence of any such misconduct in this case;

20

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 21 of 53

119) Petitioner failed to prove the first prong of the Strickland8 test that trial counsel
failed to render reasonably effective assistance under prevailing professional norms; 120) the
Petitioner failed to present specific and compelling evidence that trial counsel committed either errors
or omissions in his representation of the Petitioner; 121) Petitioner also failed to prove the second
prong of Strickland that he was prejudiced by trial counsel’s performance; 122) Petitioner did not
meet his burden of proving counsel failed to render reasonably effective assistance; 123) as to any
and all allegations that were raised in the application or at the hearing in this matter and not
specifically addressed in the PCR order, the PCR court found that Petitioner failed to present any
testimony, argument, or evidence at the hearing regarding such allegations; 124) accordingly, the
PCR court found that Petitioner had abandoned any such additional allegations; 125) Petitioner did
not establish any constitutional violations or deprivations before or during his trial and sentencing
proceedings; and 126) the PCR court dismissed the application with prejudice. See Court Docket
Nos. 30-18 and 30-21. As previously noted, the South Carolina Supreme Court subsequently denied
Petitioner’s PCR appeal wherein Petitioner presented these some of these same issues. See Barton
v. State, Appellate Case No. 2016-000995 (Order filed February 15, 2018).
Substantial deference is to be given to the state court’s findings of fact. Evans, 220
F.3d at 311-312 [”We . .. accord state court factual findings a presumption of correctness that can
be rebutted only by clear and convincing evidence!, cert, denied, 532 U.S. 925 (2001); Bell v. Jarvis,
236 F.3d 149, 157-158.
In a proceeding instituted by an application for a writ of habeas corpus by a person
in custody pursuant to the judgment of a State court, a determination of a factual issue
made by a State court shall be presumed correct. The applicant shall have the burden
Strickland v. Washington, 466 U.S. 668 (1984).
21

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 22 of 53

of rebutting the presumption of correctness by clear and convincing evidence.
28 U.S.C. § 2254(e)(1). See also Fishery. Lee. 215 F.3d438,446 (4th Cir. 20001. cert, denied. 531
U.S. 1095 (2001); Fryev. Lee. 235 F.3d 897, 900 (4th Cir. 2000). cert, denied. 533 U.S. 960 (2001).
However, although the state court findings as to historical facts are presumed correct under 28 U.S.C.
§ 2254(e)(1), where the ultimate issue is a mixed question of law and fact, as is the issue of
ineffective assistance of counsel, a federal court must reach an independent conclusion. Strickland,
466 U.S. at 698; Pruett v. Thompson, 996 F.2d. 1560, 1568 (4th Cir. 1993), cert, denied, 114S.Ct.
487 (1993) (citing Clozza v. Murray, 913 F.2d. 1092,1100 (4th Cir. 1990), cert, denied, 499 U.S. 913
(1991)).
Nonetheless, with regard to the ineffective assistance of counsel claims that were
adjudicated on the merits by the South Carolina state court, this Court’s review is limited by the
deferential standard of review set forth in 28 U.S.C. §2254(d), as interpreted by the Supreme Court
in Williams v. Taylor, 529 U.S. 362 (2000). See Bell v. Jarvis, supra; see also Evans, 220 F.3d at
312 [Under § 2254(d)(1) and (2), federal habeas relief will be granted with respect to a claim
adjudicated on the merits in state court proceedings only where such adjudication “resulted in a
decision that was contrary to, or involved an unreasonable application of, clearly established federal
law, as determined by the Supreme Court of the United States”, or “resulted in a decision that was
based on an unreasonable determination of the facts in light of the evidence presented in the State
court proceeding”]. Therefore, this Court must be mindful of this deferential standard of review in
considering the ineffective assistance of counsel claims asserted by Petitioner in his Grounds Two
and Three. With regard to Grounds Four and Five, although those issues would appear to be direct
appeal issues, they were presented to the PCR court as ineffective assistance of trial counsel claims,
22

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 23 of 53

and the PCR court’s findings as to those issues are therefore also subject to this same deferential
standard as discussed above. See discussion, infra.
Where allegations of ineffective assistance of counsel are made, the question becomes
"whether counsel's conduct so undermined the proper functioning of the adversarial process that the
trial cannot be relied on as having produced a just result." Strickland, 466 U.S. at 694. In Strickland,
the Supreme Court articulated a two prong test to use in determining whether counsel was
constitutionally ineffective. First, the Petitioner must show that counsel's performance was deficient.
This requires showing that counsel made errors so serious that counsel's performance was below the
objective standard of reasonableness guaranteed by the Sixth Amendment. Second, the Petitioner
must show that counsel's deficient performance prejudiced the defense such that the Petitioner was
deprived of a fair trial. In order to show prejudice a Defendant must show that there is a reasonable
probability that, but for counsel's errors, the result of the proceeding would have been different.
Mazzell v. Evatt, 88 F.3d 263, 269 (4th Cir.1996). Here, for the reasons set forth and discussed
hereinbelow, Petitioner has failed to meet his burden of showing that his trial counsel was ineffective
under this standard. Smith, 528 F.2d at 809 [Petitioner bears the burden of proving his allegations
when seeking a writ of habeas corpus].
Ground Two
(Failure to adequately inform the Petitioner of formal plea offer)
Petitioner contends that his counsel was ineffective for failing to inform him of a
formal plea offer and its terms and conditions so that he could make an informed decision. Petitioner
testified at his PCR hearing that counsel told him they were offering him a 15 year sentence, and he
became very angry. However, Petitioner testified that counsel never went into any details with him
23

9:18-CV-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 24 of 53

about the plea offer. Petitioner also testified that counsel never told him that the State was willing
to reduce the charges and never showed him a copy of the plea offer. See Court Docket No. 13-17,
pp. 18-19, 23, 25.
Counsel testified that sometimes it was difficult to engage with Petitioner about his
case. Id. at pp. 93-94. However, Petitioner’s trial counsel testified at his PCR hearing that she
explained the elements and the sentencing ranges to the Petitioner for armed robbery and the weapons
charge. See Court Docket No. 13-17, p. 83. Counsel testified that she received a plea offer that the
State was willing to allow Petitioner to plead to strong arm robbery and either recommend a 15 year
sentence, suspended to eight years, or a straight up plea with no recommendation, and that she went
to meet with the Petitioner on January 29,2010, where she tried to explain the plea to the Petitioner.
However, counsel testified that he became upset and would not stop talking, said that the Solicitor
could “kiss his a—“, and proceeded to argue with her. Counsel testified that thereafter, on March 25,
2010, Petitioner refused to be transported to discuss the case with her. Even so, counsel testified that
she does make her clients aware of the charges and their plea offers and that she is very thorough
about it. Counsel testified that she definitely explained the difference between strong arm robbery
and armed robbery to the Petitioner, but that Petitioner subsequently refused to see her to discuss his
case with her. Id at pp. 85-86,99,102. On cross-examination, counsel testified that when Petitioner
would hear something that he did not like, he would start talking, but that the idea that he did not
understand the strong arm robbery plea offer was ridiculous. Counsel also testified that she made it
abundantly clear to him, because she would have loved for him to have accepted the plea. Id. at p.
99. She testified that she would not have left the jail without making sure he understood, and further
opined that he understood the differences in the sentencing ranges. Id. at pp. 101-102.
24

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 25 of 53

The PCR court found that Petitioner failed to meet his burden ofproving plea counsel
did not adequately convey and discuss the plea offer. Rather, the PCR court found that trial counsel
conveyed the plea offer and explained its terms to Petitioner, that the Petitioner rejected the offer,
and then refused to see counsel for several months. The PCR court found that trial counsel’s
testimony about what had transpired was more credible than the Petitioner’s on this issue, that trial
counsel had a specific recollection of relaying the offer to the Petitioner and Petitioner opting to
refusing it, and that trial counsel fulfilled her responsibilities in this regard. Although Petitioner
claimed that trial counsel refused to keep him reasonably informed of the status of his case, trial
counsel testified it was her practice to make notes if a client requested a jail visit and that she did not
indicate her file had any such notes, that Petitioner refused to see her for several months after he
rejected the plea offer, that it was difficult to interact with the Petitioner, and to explain things to the
Petitioner that he did not want to hear, all of which the PCR Court found was credible. The PCR
court concluded that if there was any breakdown in communication between the Petitioner and trial
counsel in this case, it was due to Petitioner’s own conduct.
The state court’s credibility findings are entitled to great deference by this court in a
habeas action. Wilson v. Ozmint, 352 F.3d 847, 858-859 (4th Cir. 2003); Marshall v. Lonberger. 459
U.S. 422, 434 (1983)[“28 U.S.C. § 2254(d) gives federal habeas courts no license to redetermine
credibility of witnesses whose demeanor has been observed by the state trial court....”]. While a
district court may, in an appropriate case, reject the factual findings and credibility determinations
of a state court; Miller-El v. Cockrell. 537 U.S. 322,340 (2003); the court may not substitute its own
credibility determinations for those of the state court simply because it may disagree with the state
court’s findings (assuming that were to be the case). See Cagle v. Branker, 520 F.3d 320, 324 (4th
25

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 26 of 53

Cir. 2008) [“[F]or a federal habeas court to overturn a state court’s credibility judgments, the state
court’s error must be stark and clear .... Indeed, ‘federal habeas courts [have] no license to
redetermine credibility issues ofwitnesses whose demeanor has been observed by the state trial court,
but not by them.’” (quoting Marshall, 459 U.S. at 434)]. Further, Petitioner has not shown that the
state court’s findings were unreasonable under § 2254(d), nor has Petitioner overcome the
presumption accorded the PCR court’s findings. See Pondexter v. Dretke, 346 F.3d 142, 147-149
(5th Cir. 2003)[finding that the district court “failed to afford the state court's factual findings proper
deference” by “rejecting the state court's credibility determinations and substituting its own views
of the credibility of witnesses.”]; Evans, 220 F.3d at 312; see also Seymour v. Walker, 224 F.3d 542,
553 (6th Cir. 2000)[“Given the credibility assessment required to make such a determination and the
deference due to state-court factual findings under AEDPA, we cannot say that the trial court’s
finding was unreasonable under § 2254(d)(2).”].
Therefore, Petitioner has failed to meet his burden of showing that trial counsel's
performance was deficient in failing to adequately advise him of the formal plea agreement, and this
claim should be dismissed. Evans, 220 F.3d at 312 [Federal habeas relief will not be granted on a
claim adjudicated on the merits by the state court unless it resulted in a decision that was based on
an unreasonable determination of the facts in light of the evidence presented in the state court
proceeding]; Williams v. Taylor, supra; Strickland v. Washington, supra.; Greene, 132 S.Ct. at 43
[observing that AEDPA’s “standard of ‘contrary to, or involving] an unreasonable application of,
clearly established Federal law’ is difficult to meet, because its purpose] is to ensure that federal
habeas relief functions as guard against extreme malfunctions in the state criminal justice systems,
and not as a means of error correction”].
26

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 27 of 53

Ground Three
(Failure to object to inadmissible evidence by Rice regarding Petitioner’s
character)
Petitioner contends that his counsel was ineffective for failing to object to testimony
by co-defendant Patricia Rice attacking Petitioner’s character by bringing out the fact of his prior
incarceration. The PCR court found that Petitioner failed to meet his burden of proving trial counsel
should have objected to Rice’s testimony. The PCR court noted that during redirect examination,
Rice admitted she had previously called police because the Petitioner had committed domestic
violence but that she had chosen not to prosecute because he had already been prosecuted for
something else and she “felt like he had done his time and that was old so let him go.” At the time
that Rice referred to Petitioner’s incarceration, Petitioner’s counsel was attempting to attack her
credibility by pointing out that Rice had previously alleged Petitioner committed criminal domestic
violence, but then changed her story and claimed the assault did not happen. (R.p. 172). At the PCR
hearing, Petitioner’s counsel testified that Rice made a quick, passing statement about Petitioner
being previously incarcerated, and that she did not object as part of her trial strategy, because she did
not want to draw attention to the statement and make a big deal out of it. See Court Docket No. 1317, pp. 89-90. The PCR court held that trial counsel articulated a valid strategic reason for why she
did not object to Rice’s testimony - that she did not want to draw further attention to it, and that
Petitioner had further failed to demonstrate he suffered any prejudice as a result of this testimony.
The undersigned can discern no reversible error in the state court’s decision. While
Petitioner now disagrees with his trial counsel's strategy of not objecting to this testimony with the
benefit of hindsight, tactical and strategic choices made by counsel after due consideration do not

27

9:18-cv-00748-RBH

Date Filed 12/11/18

constitute ineffective assistance of counsel.

Entry Number 54

Page 28 of 53

Strickland, 466 U.S. at 689. There is a strong

presumption that counsel's conduct during trial was within the wide range of reasonable professional
assistance, and this Court should not scrutinize counsel's performance by looking at the decisions
made in an after the fact manner. Id. at 688-689; Bunch v. Thompson, 949 F.2d 1354 (4th
Cir.1991), cert, denied, 505 U.S. 1230 (1992); Home v. Peyton, 356 F.2d 631, 633 (4th Cir.1966),
cert, denied, 385 U.S. 863(1966); Burger v. Kemp, 483 U.S. 776 (1987); see also Harris v. Dugger,
874 F.2d 756,762 (11th Cir. 1989), cert, denied. 493 U.S. 1011 (1989) [An informed decision by trial
counsel should not be second guessed by a reviewing court.]. Moreover, Petitioner has not met his
burden of showing that, even if his counsel had objected to this statement and a curative instruction
was given, it would have resulted in a different outcome in his case. Rather, he only speculates that
it may have done so. Therefore, he has failed to meet his burden of showing that trial counsel's
performance was deficient in not objecting to the statement, or that he suffered any prejudice as a
result of counsel's decisions.
Petitioner’s claim that his counsel was ineffective on this ground should therefore be
dismissed. Evans, 220 F.3d at 312[Federal habeas relief will not be granted on a claim adjudicated
on the merits by the state court unless it resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the state court proceeding]; Williams
v. Taylor, supra; Strickland v. Washington, supra.; Greene, 132 S.Ct. at 43 [observing that AEDPA’s
“standard of ‘contrary to, or involving] an unreasonable application of, clearly established Federal
law’ is difficult to meet, because its purpose] is to ensure that federal habeas relief functions as guard
against extreme malfunctions in the state criminal justice systems, and not as a means of error
correction”].
28

9:18-CV-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 29 of 53

Grounds Four and Five
(Alleged Prosecutorial Misconduct)
Petitioner presents two grounds ofprosecutorial misconduct: 1) that Prosecutor Moyer
used perjured testimony from Rice to obtain Petitioner’s conviction, and 2) that the prosecutor
engaged in misconduct by using the magazine photos in the line-up. In the PCR Court’s order, the
PCR judge discussed these issues as ineffective assistance of counsel claims based on counsel failing
to argue prosecutorial misconduct. However, Petitioner then raised Grounds Four and Five in his
PCR appeal as straight prosecutorial misconduct claims [Court Docket No. 13-30, pp. 18-26] and
also presents them in the same manner in this traverse in this federal habeas petition [Court Docket
No. 44, pp. 12-24], Straight prosecutorial misconduct claims are direct appeal issues, and
[u]nder South Carolina law, “[i]ssues that could have been raised at trial or on direct
appeal cannot be asserted in an application for post-conviction relief....” Drayton
v. Evatt, 430 S.E.2d 517, 520 (S.C. 1993)(citing Hyman v. State, 299 S.E.2d 330
(S.C. 1983)). Prosecutorial misconduct is such an issue. See, e.g. State v. Inman, 720
S.E.2d 31, 43-45 (S.C. 201 l)(addressing, on direct appeal, trial judge’s finding that
prosecutors engaged in misconduct by intimidating witness).
See Portee v. Stevenson, No. 15-487, 2016 WL 690871 at * 2 (D.S.C. Feb. 22, 2016).
However, since the Respondent has not objected or argued that these two claims should be barred on
the basis of Petitioner not properly pursuing them in state court in his direct appeal, the undersigned
has discussed them herein as currently raised by the Petitioner.9
Petitioner testified that Rice gave perjured testimony at the trial about what happened

9In analyzing these claims as ineffective assistance of counsel claims, the PCR court discussed
the merits of the claims when making its finding that Petitioner suffered no prejudice as a result of
counsel not raising these prosecutorial misconduct issues. Therefore, the PCR court’s findings as
they relate to these underlying issues are relevant and considered herein in accord with Bell and
Evans.
29

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 30 of 53

the night of the robbery after meeting with the Solicitor. At his PCR hearing, Petitioner testified that
Moyer either knew that Rice was going to testify falsely or he should have known. See Court Docket
No. 13-17, p. 32. Petitioner also testified at his PCR hearing that he saw Rice and Moyer meeting
at the jail. See Court Docket No. 13-17, pp. 38-39. While Rice testified she and the Petitioner
separated on the evening of the robbery, purported witness Aaron Jones testified at the PCR hearing
that he saw Petitioner with Rice on the night of the incident at the same approximate time as the
incident and saw them together the next morning. See Court Docket No. 13-17, pp. 73-77. Jones
testified that even though he was on drugs at the time and the incident had occurred years before, he
specifically remembering seeing Petitioner and Rice together at that certain time on that certain date.
Id. Counsel testified Petitioner told her that he had seen Moyer meeting with Rice, and counsel
confirmed that Moyer had met with Rice. Counsel also testified that a couple of days prior to that
meeting, Moyer told her that he was dismissing charges against Rice, and that Moyer sent Petitioner’s
counsel a copy of a letter he had sent to Rice’s attorney explaining his reasons for dismissing the
charges against her. Petitioner’s counsel testified at the PCR hearing that she did not see any basis
to obj ect to Moyer ’ s questioning of Rice, and also saw no basis to obj ect to Moyer meeting with Rice.
See Court Docket No. 13-17, pp. 88-89. For his part, Moyer testified at Petitioner’s PCR hearing that
he did not have any question about the truthfulness of Rice’s testimony or any concerns that she was
perjuring herself. See Court Docket No. 13-17, p. 72. Moyer testified that he met with her several
times and did not have any doubt that she was telling him the truth about that night. Id.
With regard to the mug shot photograph, Moyer testified that Petitioner had been
arrested based on his co-defendant’s statement, and that was how Petitioner’s photograph got into
Mugshot Magazine. After it was in the magazine, the victim saw it. Moyer testified that he
30

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 31 of 53

subsequently called an investigator and asked him to set up a photograph lineup, but that he was not
involved in the process. Rather, he was sent a copy of the lineup after it occurred. Moyer testified
that he did not know about the Mugshot Magazine at the time of the photo lineup and did not even
learn about it until a month or two before trial. See Court Docket No. 13-17, pp. 68-70. Petitioner’s
trial counsel testified that she did not believe Moyer’s conduct constituted prosecutorial misconduct.
See Court Docket No. 13-17, p. 95.
To establish prosecutorial misconduct, Petitioner must demonstrate that the
prosecutor's conduct was improper and that it prejudicially affected his substantial rights. United
States v. Pepke, No. 16-4271,2016 WL 6575082 at * 1 (4th Cir. Nov. 7,2017)(citing United States
v. Caro, 597 F.3d 608, 624-25 (4th Cir. 2010); see also United States v. Armstrong. 517 U.S. 456,
464 (1996) [noting presumption of regularity accorded prosecutorial decisions]). The State Court
found no prosecutorial misconduct occurred in this case. The PCR court found that Moyer testified
he had no concerns that Rice perjured herself and that he had no doubts she was telling the truth,
while also noting that Jones (who testified that he recalled seeing the Petitioner and Rice together)
admitted he was on drugs at the time and that when asked on cross-examination how he could recall
that day in particular, Jones had responded “that’s a good question”. The PCR court then discussed
trial counsel’s testimony that Petitioner told her Moyer met with Rice and that she confirmed this,
and that there was a letter in her file from Moyer to Rice’s attorney. The PCR court found that there
is no prohibition against the prosecutor meeting with a co-defendant in a criminal case, and also
found that Petitioner had failed to demonstrate Rice offered incorrect or perjurious testimony.
Therefore, the PCR court found that Petitioner had failed to present any credible evidence to support
his allegation that trial counsel should have obj ected to Rice ’ s testimony about her whereabouts after
31

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 32 of 53

the armed robbery. The PCR court also made findings regarding Moyer’s knowledge of Petitioner’s
mugshot being used in his photograph lineup, and found credible Moyer’s testimony that he did not
know about the mug shot magazine when the lineup was put together and that trial counsel also
testified Moyer was not aware of the mug shot magazine before the photographic lineup was made.
As previously noted, substantial deference is to be given to the state court’s findings
of fact. Evans, 220 F.3d at 311-312 [”We . . . accord state court factual findings a presumption of
correctness that can be rebutted only by clear and convincing evidence], cert, denied, 532 U.S. 925
(2001); Bell, 236 F.3d at 157-158.
In a proceeding instituted by an application for a writ of habeas corpus by a person
in custody pursuant to the judgment of a State court, a determination of a factual issue
made by a State court shall be presumed correct. The applicant shall have the burden
of rebutting the presumption of correctness by clear and convincing evidence.
28 U.S.C. § 2254(e)(1).
Here, despite Petitioner’s claim of prosecutorial misconduct, there is no evidence in the record to
show that Moyer engaged in prosecutorial misconduct through either Rice’s testimony or Petitioner’s
mugshot photograph being used in the photograph lineup, and the PCR court’s credibility findings
on these issues are entitled to substantial deference on habeas corpus review. Marshall, 459 U.S. at
434 [“28 U.S.C. § 2254(d) gives federal habeas courts no license to redetermine credibility of
witnesses whose demeanor has been observed by the state trial court...”]. As noted earlier, while a
district court may, in an appropriate case, reject the factual findings and credibility determinations
of a state court; Miller-El, 537 U.S. at 340; the court may not substitute its own credibility
determinations for those of the state court simply because it disagrees with the state court's findings
(assuming that were to be the case). See Seymour, 224 F.3d at 553 [“Given the credibility

32

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 33 of 53

assessment required to make such a determination and the deference due to state-court factual
findings under AEDPA, we cannot say that the trial court's finding was unreasonable under §
2254(d)(2).”].
Petitioner has not presented any evidence to show that Moyer engaged in any
prosecutorial misconduct. Smith, 528 F.2d at 809 [Petitioner bears the burden of proving his
allegations when seeking a writ of habeas corpus]. Nor has he shown that he was prejudiced by the
prosecutor’s actions in this case, or that the state court's rejection of these claims was unreasonable.
Evans, 200 F.3d at 312 [Federal habeas relief will not be granted on a claim adjudicated on the merits
by the state court unless it resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the state court proceeding]. As such, while Petitioner
does not currently allege these claims as ineffective of assistance of counsel claims, even if he had,
he has failed to present any cogent argument or evidence that would have provided a basis for his
counsel to object to Rice’s testimony or the use of his mugshot photograph in the photograph lineup
on the basis of prosecutorial misconduct. Williams v. Taylor, 529 U.S. 362 (2000); Bell, 236 F.3d
at 157-1581; Smith, 528 F.2d at 809 [Petitioner bears the burden of proving his allegations when
seeking a writ ofhabeas corpus.]. Therefore, Petitioner ’ s prosecutorial misconduct claim in Grounds
Four and Five are without merit and should be dismissed.
III.
(Procedurally Barred Issues)
Petitioner’s remaining ineffective assistance of counsel claims in Grounds Seven
through Seventeen, along with Ground Six (which is not an ineffective assistance claim), were not
properly pursued in state court and are therefore procedurally barred. Specifically, Grounds Ten
33

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 34 of 53

through Seventeen were not properly pursued in the initial PCR proceedings prior to his appeal. With
regard to Grounds Six10 through Nine,11 although Petitioner did initially pursue these issues in his
PCR proceedings, he failed to raise them in his PCR appeal.
Because Petitioner did not properly raise and preserve these remaining issues in his
state court proceedings as noted above, they are barred from further state collateral review; Whiteley
v. Warden, Wyo. State Penitentiary, 401 U.S. 560, 562 n. 3 (1971); Wicker v. State, 425 S.E.2d 25
(S.C. 1992kIngramv. StateofS.C..No.97-7557,1998 WL726757at** 1 (4thCir. Oct. 16,1998);
Josevv. Rushton, No. 00-547,2001 WL 34085199 at * 2 (D.S.C. March 15,2001); Aicev. State. 409
S.E.2d 392, 393 (S.C. 1991)[post-conviction relief]; see also White v. Burtt. No. 06-906,2007 WL
709001 at *1 & *8 (D.S.C. Mar. 5, 2007)(citing Pruitt v. State. 423 S.E.2d 127, 127-128 (S.C.

10In Ground Six, Petitioner claims that he was denied the right to confront an adverse witness,
the victim’s brother, whose testimony was used in the form of a testimonial. At his PCR proceeding,
Petitioner presented this issue as an ineffective assistance of counsel claim, and the PCR court ruled
on that claim as presented. See Court Docket No. 30-18, pp. 9-10. However, Petitioner now attempts
to raise the underlying claim itself, rather than as an ineffective assistance of counsel claim. See
Court Docket No. 44, pp. 31-34. In either posture, this claim is procedurally bared. To th extent that
Petitioner attempts to raise it as stated in his traverse, it is a direct appeal issue and is procedurally
barred because it was not preserved at trial and therefore could not be raised on direct appeal.
Moreover, the only “cause” Petitioner has asserted for his procedural default of this claim related to
his PCR appellate proceedings. See Court Docket No. 44, pp. 29-30. However, to the extent that
Petitioner is attempting to raise it as an ineffective assistance of counsel claim, which was the claim
presented in his initial PCR proceeding, his claim is procedurally barred due to his own failure to
raise it in his pro se PCR appellate proceedings. See discussion, infra.
uWith regard to Ground Nine, Petitioner testified at the PCR hearing about his counsel’s
alleged ineffectiveness for not moving to suppress the weapon. See Court Docket No. 13-17, p. 9.
In his memorandum, he also discusses the PCR court’s discussion of him being found not guilty on
the weapon charge. See Court Docket No. 44, p. 45. However, this was not a claim addressed in the
PCR Court order. Even so, since neither Respondent or Petitioner discuss this issue as not having
been properly pursued in the initial PCR proceeding, the undersigned has discussed this issue as one
that was not properly pursued in Petitioner’s PCR appeal. See Court Docket No. 44,pp. 41-46; Court
Docket No. 30, pp. 52-53.
34

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 35 of 53

1992)[issue must be raised to and ruled on by the PCR judge in order to be preserved for review]);
cf Cndd V Ozmint- No. 08-2421, 2009 WL 3157305 at * 3 (D.S.C. Sept. 25, 2009)[Finding that
where Petitioner attempted to raise an issue in his PCR appeal, the issue was procedurally barred
where the PCR court had not ruled on the issue and Petitioner’s motion to alter or amend did not
include any request for a ruling in regard to the issue]; Sullivan v. Padula, No. 11-2045, 2013 WL
876689 at * 6 (D.S.C. Mar. 8,2013)[Argument not raised in PCR appeal is procedurally barred]; and
as there are no current state remedies for Petitioner to pursue these issues, they are otherwise fully
exhausted. Coleman v. Thompson, 501 U.S. at 735; Teague v. Lane, 489 U.S. 288,297-298 (1989);
George v. Angelone, 100 F.3d 353, 363 (4th Cir. 1996) [”A claim that has not been presented to the
highest state court nevertheless may be treated as exhausted if it is clear that the claim would be
procedurally defaulted under state law if the petitioner attempted to raise it at this juncture.”], cert.
denied, 117 S.Ct. 854 (1997); Aice, 409 S.E.2d at 393; Matthews v. Evatt, 105 F.3d 907, 911 (4th
Cir. 1997) [“To satisfy the exhaustion requirement, a habeas Petitioner must fairly present his
claim[s] to the state’s highest court... the exhaustion requirement for claims not fairly presented to
the state ’ s highest court is technically met when exhaustion is unconditionally waived by the state.. .or
when a state procedural rule would bar consideration if the claim[s] [were] later presented to the state
court.”], cert, denied, 522 U.S. 833 (1997); Ingram, 1998 WL 726757 at **1.
However, even though otherwise exhausted, because these issues were not properly
pursued and exhausted by Petitioner in the state court, federal habeas review of these claims is now
precluded absent a showing of cause and prejudice, or actual innocence. State v. Powers, 501 S.E.2d
116, 118 (S.C. 1998); Martinez, 566 U.S. at 9-10; Wainwrightv. Sykes, 433 U.S. 72 (1977); Wave
v. Murray, 884 F.2d 765, 766 (4th Cir. 1989), cert denied, 492 U.S. 936 (1989).
35

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 36 of 53

In all cases in which a State prisoner has defaulted his Federal claims
in State court pursuant to an independent and adequate State
procedural rule, Federal Habeas review of the claim is barred unless
the prisoner can demonstrate cause for the default and actual prejudice
as a result of the alleged violation of Federal law, or demonstrate that
failure to consider the claims will result in a fundamental miscarriage
of justice.
Coleman, 501 U.S. at 750.
In his response, Petitioner initially argues as “cause” for failing to raise Grounds Six through Nine
that he was proceeding pro se and that the state court’s twenty-five page limitation on his brief
prevented him from properly pursuing these claims. See Petitioner’s Traverse in Opposition to
Summary Judgment [Court Docket No. 44, pp. 29,34, and 38]. With regard to Grounds Ten through
Seventeen, Petitioner contends that his cause for failing to properly pursue these claims was that his
PCR counsel was ineffective for failing to raise them. However for the reasons set forth below,
Petitioner has failed to show the necessary “cause” to overcome the procedural bar with respect to
any of these claims.
Pro Se Argument
As noted, Petitioner argues as “cause” for failing to raise Grounds Six through Nine12
that he was proceeding pro se and that the state court’s twenty-five page limitation on his brief
prevented him from properly pursuing these claims. See Petitioner’s Traverse in Opposition to
Summary Judgment [Court Docket No. 44, pp. 29, 34, and 38]. However, the Petitioner has offered
no legal support for this position, and the undersigned does not find this assertion constitutes “cause”
12Although Petitioner does not specifically repeat this pro se “cause” argument for Ground
Nine, he discusses the PCR court’s findings [Court Docket No. 44, p. 45] and did not raise it in his
PCR appeal. Therefore, rather than finding Petitioner did not even make an argument as to “cause”
with respect to this issue, in consideration of Petitioner’s pro se status the undersigned has assumed
that Petitioner intended to make his same pro se cause argument with respect to this claim.
36

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 37 of 53

for his failure to properly raise these Grounds Six through Nine in his PCR appeal. See Petrick v.
Thornton, No. 09-551, 2014 WL 6626838, at *4 (M.D.N.C. Nov. 21, 2014)(citing See, e^., Siluk
v. Beard, 395 Fed. Appx. 817,820 (3dCir.2010) (“[T]he right of self-representation does not exempt
a party from compliance with relevant rules of procedural law. We must therefore conclude that [the
petitioner's] pro se status, without more, cannot constitute cause sufficient to excuse the procedural
default ofhis federal claims in state court.”](intemal citations omitted); Jones v. Armstrong, 367 Fed.
App'x 256,258 (2d Cir.2010) (“[The petitioner's] own ineffectiveness while proceeding pro se does
not constitute cause for his procedural default because it is not ‘something external to the petitioner,
something that cannot be fairly attributed to him.’ It is, in fact, precisely the opposite, a conclusion
that many courts have reached. Moreover,... [t]he Supreme Court has held that ‘a defendant who
elects to represent himself cannot thereafter complain that the quality of his own defense amounted
to denial of effective assistance of counsel.’ “ (internal citations and emphasis omitted) (quoting
Coleman, 501 U.S. at 753, and Faretta v. California, 422 U.S. 806, 834 n. 46 (1975), respectively)).
The record reflects that Petitioner was specifically warned by the state court of the
hazards of proceeding pro se, and he chose to do so anyway. See Court Docket Nos. 30-24 and 3025. Therefore, this claim is without merit. Holloway v. Smith, No. 95-7737, 81 F.3d 149 (table),
1996 WL 160777, at *1 (4th Cir. Apr. 8, 1996) (unpublished) [“[The petitioner] does not meet the
cause and prejudice standard because unfamiliarity with the law and his pro se status do not constitute
adequate justification to excuse his failure to present the claim earlier....”]; see also Coley v. Clarke,
No. 14-120, 2014 WL 11513134, at *5 (E.D. Va. Sept. 23, 2014), report and recommendation
adopted. No. 2:14CV120,2014 WL 11512403 (E.D. Va. Dec. 17,2014)(citing Eaton v. Virginia. 13367,2014 WL 688137, at *5 (W.D. Va. Feb. 21,2014)[holding that Martinez did not apply to excuse
37

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 38 of 53

default based on pro se petitioner's failure to properly present assignments of error in his appeal to
the Supreme Court of Virginia]).
PCR Counsel
With respect to Petitioner’s PCR counsel argument, the United States Supreme Court
has held that “if the procedural default is the result of ineffective assistance of counsel, the Sixth
Amendment itself requires that responsibility for the default be imputed to the State ... Ineffective
assistance of counsel, then, is cause for procedural default.” Murray, 477 U.S. at 488; see also
Coleman v. Thompson, supra; McCleskey v. Zant, 499 U.S. 467, 494 (1991); Noble v. Barnett, 24
F.3d 582, 586, n.4 (4th Cir. 1994)[“[Constitutionally ineffective assistance of counsel is cause per
se in the procedural default context”]; Smith v. Dixon, 14 F.3d 956, 973 (4th Cir. 1994)(en banc).
However, while ineffective assistance of counsel can constitute “cause” for a
procedural default, it will only constitute “cause” if it amounts to an independent violation. Ortiz v.
Stewart, 149 F.3d 923, 932 (9th Cir. 1998); Bonin v, Calderon, 77 F.3dll55, 1159 (9th Cir. 1996).
Ineffective assistance of PCR counsel (as opposed to trial or direct appeal counsel) does not amount
to an independent constitutional violation, and therefore will not ordinarily constitute “cause” for a
procedural default. Murray v. Giarratano, 492 U.S. 1-7, 13 (1989) [O’Connor, J., concurring] [
“[T]here is nothing in the Constitution or the precedents of [the Supreme] Court that requires a State
provide counsel in postconviction proceedings. A postconviction proceeding is not part of the
criminal process itself, but is instead a civil action designed to overturn a presumptively valid
criminal judgment. Nothing in the Constitution requires the State to provide such proceedings,...nor
does...the Constitution require [ ] the States to follow any particular federal model in those
proceedings.”]; Mackall v. Angelone, 131 F.3d 442,447-449 (4th Cir. 1997); Ortiz, 149F.3dat932;
38

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 39 of 53

Pollard v. Delo, 28 F.3d 887, 888 (8th Cir. 1994); Lampv. State of Iowa, 122 F.3d 1100,1104-1105
(8th Cir. 1997); Parkhurst v. Shillinger, 128 F.3d 1366,1371 (10th Cir. 1997); Williams v. Chrans.
945 F.2d 926,932 (7th Cir. 1992); Gilliam v. Simms, No. 97-14,1998 WL 17041 at *6 (4th Cir. Jan.
13, 1998).
However, in Martinez v. Ryan, the Supreme Court carved out a “narrow exception”
that modified
“the unqualified statement in Coleman that an attorney’s ignorance or inadvertence
in a postconviction proceeding does not qualify as cause to excuse a procedural
132 S.Ct. at 1315. [F]or three reasons. First, the
default.” Martinez, 566 U.S. at
“right to the effective assistance of counsel at trial is a bedrock principle in our justice
system .... Indeed, the right to counsel is the foundation for our adversary system.”
., 132 S.Ct. at 1317.
Id. at
Second, ineffective assistance of counsel on direct appellate review could amount to
“cause”, excusing a defendant’s failure to raise (and thus procedurally defaulting) a
132 S.Ct. at 1316,1317. But States often have good
constitutional claim. Id. at
reasons for initially reviewing claims of ineffective assistance of trial counsel during
state collateral proceedings rather than on direct appellate review. Id. at__ , 132
S.Ct. at 1317-1318. That is because review of such a claim normally requires a
different attorney, because it often “depend[s] on evidence outside the trial record,”
and because efforts to expand the record on direct appeal may run afoul of
“[abbreviated deadlines,” depriving the new attorney of “adequate time ... to
132 S.Ct. at 1318.
investigate the ineffective-assistance claim.” W. at
Third, where the State consequently channels initial review of this constitutional
claim to collateral proceedings, a lawyer’s failure to raise an ineffective assistance of
counsel claim during initial-review collateral proceedings, could (were Coleman read
broadly) deprive a defendant of any review of that claim at all. Martinez, supr a at
___, 132 S.Ct. at 1316.
We consequently read Coleman as containing an exception, allowing a federal habeas
court to find “cause,” thereby excusing a defendant’s procedural default, where (1)
the claim of “ineffective assistance of trial counsel” was a “substantial” claim; (2) the
“cause” consisted of there being “no counsel” or only “ineffective” counsel during the
state collateral review proceeding; (3) the state collateral review proceeding was the
“initial” review proceeding in respect to the “ineffective-assistance-of-trial-counsel
claim”; and (4) state law requires that an “ineffective assistance of trial counsel
39

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 40 of 53

[claim] ... be raised in an initial-review collateral proceeding.” Martinez, supra at
132 S.Ct. at 1318-1319, 1320-1321.
Trevino v. Thaler, 133 S.Ct. 1911,1917-1918 (2013); see also Grayv. Pearson, 526 Fed. Appx. 331,
333 (4th Cir. June 7, 2013)[“The Supreme Court had previously held in Coleman that because a
habeas petitioner has no constitutional right to counsel in state post-conviction proceedings, the
ineffectiveness of post-conviction counsel cannot establish ‘cause’ to excuse a procedural default.
Coleman, 501 U.S. at 757. The Court established an exception to that rule in Martinez.”!
Therefore, because, under South Carolina law, a claim ofineffective assistance of trial
is raised in an APCR; cf. State v. Felder, 351 S.E.2d 852 (S.C. 1986); Bryant v. Reynolds, No. 121731, 2013 WL 4511242, at * 19 (D.S.C. Aug. 23, 2013); Gray, 2013 WL 2451083, at * 4, fh *; a
petitioner’s claim of ineffective assistance of PCR counsel as “cause” for his default may be
considered under the revised standard ofMartinez and Trevino. Even so, under the first requirement
of the Martinez exception, the Petitioner must “demonstrate that the underlying ineffectiveassistance-of-trial-counsel claim is a substantial one, which is to say that the [petitioner] must
demonstrate that the claim has some merit.” Gray, 2013 WL 2451083 at * 2. As discussed below,
Petitioner’s claims fail to meet this standard.
Ground Ten
In Ground Ten, Petitioner contends that counsel created a conflict of interest in her
representation because she divulged Petitioner’s prior relationship with Ms. Rice to investigators.
In a motion to remove counsel prior to his trial, Petitioner testified that he told his counsel in
confidence that he had lived with Rice. Petitioner also testified that he wanted to surprise the State
with this information, and he opined that the State believed they were strangers. (R.pp. 10-12).

40

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 41 of 53

However, Petitioner’s counsel testified that she questioned Investigator Mike Jarvis at Petitioner’s
bond reconsideration hearing as to whether he knew that Petitioner and Rice had been in a prior
relationship in an effort to the get the court to reconsider giving Petitioner a bond. Counsel testified
that she asked the question to show that Rice had lied about their prior relationship. Counsel also
testified that the information was not confidential. (R.pp. 10-13). Moreover, Moyer testified that he
learned this information from Rice herself. (R.p. 15).
Petitioner asserts that counsel should have been replaced due to a conflict of interest
because of this alleged disclosure. However, Petitioner has not shown how, even if counsel disclosed
the relationship without Petitioner’s permission, that created a conflict of interest with his counsel.
The trial court held that while Petitioner could proceed pro se, it was not going to replace his counsel
on this basis. (R.pp. 13-16). Petitioner also raised a related claim in his direct appeal that the trial
court had erred in not granting his motion to relieve counsel, but the South Carolina Court ofAppeals
held that Petitioner waited until the first day of trial to submit the motion to the trial court, and he did
not express a willingness to represent himself. The state Appellate court further noted that the
prosecutor indicated that he had independently gained the information that Petitioner alleged to have
been improperly revealed by his trial counsel, and held that even if this information was confidential
in nature, Petitioner was not prejudiced by counsel’s alleged revelation of the information prior to
trial. See State v. Barton, Appellate No. 201-0169826 (S.C.CtApp. Jan. 30,2013), cert, denied,(S.C.
July 11, 2014) [Court Docket Nos. 13-5, pp. 4-5 and 13-8],
“To establish ineffective assistance of counsel on conflict of interest grounds, a
petitioner must establish that (1) his attorney labored under ‘an actual conflict of interest’ that (2)
‘adversely affected his lawyer's performance.’” Henderson v. McFadden. No. 14-511, 2015 WL
41

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 42 of 53

433492, at *3 (D.S.C. Feb. 3,2015)(quoting Mickens v. Taylor, 240 F.3d348 (4thCir.2001) (citing
Cuvier. 446 U.S. at 348)), appeal dismissed, 609 F. App'x 160 (4th Cir. 2015). “[U]ntil a defendant
shows that his counsel actively represented conflicting interests, he has not established the
constitutional predicate for his claim of ineffective assistance of counsel.” Cuvier v. Sullivan, 446
U.S. 335, 350 (1980). Moreover, even if an actual conflict of interest is established, the burden
remains on Petitioner to demonstrate that the conflict had an adverse effect on his defense.
Henderson. 2015 WL433492 at * 3 (citingCudd v. Ozmint, No. 08-2421,2009 WL3157305 at **
2-3 (D.S.C. Sept. 25, 2009)[holding petitioner’s argument failed on merits because he did not
demonstrate that conflict of interest adversely affected counsel’s performance]).
“[T]he Sullivan standard is not properly read as requiring inquiry into actual conflict
as something separate and apart from adverse effect. An ‘actual conflict’ for Sixth Amendment
purposes, is a conflict of interest that adversely affects counsel’s performance.” Mickens v. Taylor,
535 U.S. 162, 172 n. 5 (2002). Cf Russell v. Lynaugh, 892 F.2d 1205, 1214 (5,h Cir. 1989), cert.
denied, 501 U.S. 1259, rehearing denied, 501 U.S. 1277 (1991)[fmdingno conflict of interest where
“no evidence that the lawyer representing [the witness at issue] on any active matter; nor is there any
evidence he questioned [this witness] any less aggressively as a result of the alleged representation
than he otherwise would have done.”]; Simmons v. Lockhart, 915 F.2d 372, 378 (8th Cir. 1990)[in
finding lack of prejudice: “We have studied the transcript of the trial, with particular reference to
counsel’s cross-examination of the witness [ ], and we are unable to fault that effort at discrediting
[witness at issue] and his testimony”]; Wright v. Smith, 348 Fed.Appx. 612, 613 (2d Cir.
2009)[noting “uninhibited cross-examination,” finding “the record does not support the contention
that counsel failed to represent [the Defendant] to the best of his ability because of any prior
42

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 43 of 53

representation”].
In this case, Petitioner has not shown any conflict of interest in his counsel questioning
the investigator about his prior relationship with Rice, nor has Petitioner shown that he was
prejudiced due to this alleged disclosure. Accordingly, Petitioner has not shown that the state court
findings on this issue were in error. (R.pp. 13-16); see also State v. Barton, Appellate No. 2010169826 (S.C.CtApp. Jan. 30,2013), cert denied,(S.C. July 11,2014) [Court Docket Nos. 13-5 and
13-8]. See State v. Gregory, 612 S.E.2d 449,450 (S.C. 2005)[“An actual conflict of interest occurs
where an attorney owes a duty to a party whose interests are adverse to the defendant’s]. As such,
Petitioner has also not shown a substantial issue of ineffective assistance of counsel on this basis.
Grounds Eleven and Seventeen
In Ground Eleven, Petitioner contends that his counsel was ineffective for failing to
call Moyer to testify about the alleged prosecutorial misconduct. In a related issue (Ground
Seventeen), Petitioner contends that his counsel was ineffective for failing to raise that Moyer
violated rules of professional ethics and the cannons of law as cardinal rule and, as a result, denied
the Petitioner due process.
In order for a defendant to call a prosecutor as a witness, the defendant must
“demonstrate a compelling and legitimate reason to do so.” United States v. Regan, 103 F.3d 1072,
1083 (2d Cir. 1997). Additionally, a defendant has an obligation to exhaust other available sources
of evidence before a court should sustain a defendant’s efforts to call a participating prosecutor as
a witness. United States v. West, 680 F.2d 652, 654 (9th Cir. 1982). Petitioner has not met either of
these standards to justify the relief he seeks. In this case, Petitioner’s trial counsel thoroughly crossexamined Rice on any bias she had to testify against the Petitioner in exchange for dismissal of
43

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 44 of 53

charges against her. (R.pp. 169-170). Moreover, Solicitor Moyer testified at Petitioner’s PCR
hearing that he did not have any question about the truthfulness of Rice’s testimony or any concerns
that she was peijuring herself. See Court Docket No. 13-17, p. 72. Moyer testified that he met with
Rice several times and did not have any doubt that she was telling him the truth about that night. Id.
Moreover, when ruling on a related issue, the PCR court noted there is no prohibition against the
prosecutor meeting with a co-defendant in a criminal case and found that, regardless, Petitioner failed
to demonstrate that Rice offered incorrect or perjurious testimony. The PCR court also found that
while Jones testified he recalled seeing the Petitioner and Rice together for a 30 minute period on a
specific date more than 6 years ago, that testimony was not credible. See Court Docket No. 13-8,
p. 10.
With regard to any ethical violation due to the mug shot photograph, Moyer testified
that Petitioner had been arrested based on his co-defendant’s statement and that was how Petitioner’s
photograph got into Mugshot Magazine. After it was in the magazine, the victim saw it. Moyer
testified that he subsequently called an investigator and asked him to set up a photograph lineup, but
that he was not involved in the process. Rather, he was sent a copy of the lineup after it occurred.
Moyer testified that he did not know about the Mugshot Magazine at the time of the photo lineup and
did not even learn about it until a month or two before trial. See Court Docket No. 13-17, pp. 68-70.
Petitioner’s trial counsel testified that she did not believe Moyer’s conduct constituted prosecutorial
misconduct. See Court Docket No. 13-17, p. 95.
The PCR court found that there is no prohibition against the prosecutor meeting with
a co-defendant in a criminal case, and that Petitioner failed to demonstrate Rice offered incorrect or
peijurious testimony. The PCR court also found Moyer’s testimony credible that he did not know
44

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 45 of 53

about the mug shot magazine when the lineup was put together and that trial counsel also testified
Moyer was not aware of the mug shot magazine before the photographic lineup was made. Petitioner
has failed to show that the Solicitor violated any rules of professional ethics and the cannons of law.
Therefore, even if counsel had attempted to raise this issue, Petitioner has not shown any prejudice.
See also discussion Grounds Four and Five, supra [discussing the underlying claims ofprosecutorial
misconduct]. Accordingly, Petitioner has failed to show any substantial ineffective assistance of
counsel claims regarding these issues.
Grounds Twelve, Thirteen and Fourteen
Petitioner next contends in related grounds that counsel was ineffective for failing to
investigate the circumstances surrounding the case and possible witnesses (Ground Twelve), for
failing to put up a defense during the trial stage (Ground Thirteen), and for failing to put the state’s
case to adversarial testing (Ground Fourteen).
At the PCR hearing, Petitioner testified that he asked his counsel to investigate a lot
of things, but that she did not. See Court Docket No. 13-17, pp. 42-43. Petitioner testified that he
told his counsel about people who might have knowledge of the events and what happened.
However, he also testified that he did not tell her to contact potential witnesses Childs, Jones, or
Davis. See Court Docket No. 13-17, pp. 43-44. While Petitioner did present Jones’ testimony at his
PCR hearing, the PCR court found it not to have been credible. See discussion, supra. Petitioner’s
counsel testified at the PCR hearing that Petitioner had told her that his cellmate might have some
information about his case, but counsel believed this witness would not be a reliable source of
information at trial. See Court Docket No. 13-17, pp. 83-84. The record also reveals that trial
counsel adamantly objected to the photo lineup and moved to suppress the identification. (R.pp. 40,
45

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 46 of 53

86-89). Counsel also made other motions, including a motion to quash the indictment. (R.pp. 8991). Counsel throughly cross-examined witnesses on their testimony including, but not limited to,
the victim and Rice. (R.pp. 64, 69, 170-174). Counsel also hired an expert to testify about the
reliability of eyewitness identifications (R.pp. 70-78), and argued the eyewitness testimony was
unreliable to the jury and cross-examined the witness on inconsistent descriptions of the perpetrator
and his state of sobriety at the time of the robbery. (R.pp. 103-104, 126-127). Counsel later also
questioned the responding officer on his incident report describing the victim as intoxicated . (R.p.
154). With regard to Rice, counsel thoroughly cross-examined her as to her bias to testify against
the Petitioner in exchange for dismissal of her charges, as well as Rice’s statement saying she did not
see a knife. (R.pp. 169-171). Counsel moved for a directed verdict following the State’s case, and
in her closing argument challenged whether the State had met its burden of proof. (R.pp. 208,230).
Counsel also questioned the State’s thoroughness in proving its case when it failed to call the victim’s
brother to testify. (R.p. 234). At the PCR hearing, counsel testified that Petitioner told her that he
did not want to testify, so she preferred to not put up a defense so she would have the last closing
argument. See Court Docket No. 13-17, p. 87. Notably, counsel was successful in getting the jury
to find Petitioner not guilty on the weapon charge. (R.p. 267).
Petitioner has failed to meet his burden to show his counsel failed to take further
action which prejudiced him in her representation of him. While Petitioner makes numerous
unsupported allegations in his traverse, Petitioner has failed to point to any evidence counsel failed
to discover, or any evidence to support additional defenses that could have been pursued had counsel
been more fully prepared or had additional time prior to the case being called to trial. Petitioner has
failed to show that trial counsel's performance was deficient in not further investigating possible
46

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 47 of 53

witnesses, for failing to put up a defense during the trial 'stage, and for failing to put the state’s case
to adversarial testing. Furthermore, even assuming arguendo that defense counsel had further
investigated witnesses, put up any additional alleged defenses, and further challenged the state ’ s case,
Petitioner has not shown the likelihood of a different outcome, and as a result has failed to show any
prejudice as a result of counsel's failure to do so. Smith, 528 F.2d at 809 [Petitioner bears the burden
of proving his allegations when seeking a writ of habeas corpus.]; cf^ Clark v. State, 434 S.E.2d 266,
267-268 (S.C. 1993)[pure conjecture as to what a witness’ testimony would have been is not
sufficient to show a reasonable probability the result at trial would have been different].
Accordingly, Petitioner has not shown a substantial issue of ineffective assistance of
counsel on this basis.
Ground Fifteen
In Ground Fifteen, Petitioner argues that his counsel was ineffective for failing to
argue for an evidentiary hearing or moving to suppress a deadly weapon prior to trial.
Petitioner was indicted for armed robbery and possession of a weapon during the
commission of a violent crime. During the State’s case in chief, the victim testified that when
Petitioner attacked him, he held a weapon to his throat. However, the victim also acknowledged that
he did not see the weapon. (R.p. 128). Rice testified that it was dark when the Petitioner attacked
the victim, and that she could not see whether or not he had any weapon in his hands. (R.p. 167).
However, the arresting officer, Johnny Brown, testified that when he arrested the Petitioner and
pattedhim down, he found a “lock blade knife” in one of Petitioner’s front pockets. (R.p. 182). The
knife was introduced into evidence during the testimony of Investigator Mike Jarvis. (R.p. 194). As
noted, the jury convicted the Petitioner of armed robbery, but acquitted him of the weapons charge.
47

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 48 of 53

(R.p. 267).
At his PCR hearing, Petitioner testified that he tried to get his counsel to file a motion
for an evidentiary hearing and to suppress the weapon, but she refused to do so. See Court Docket
No. 13-17, p. 26. Petitioner testified that although he was acquitted of the weapon charge, that he
believed he was prejudiced by its introduction into evidence. He testified that he believed his counsel
should have filed a motion for an evidentiary hearing and to suppress, and opined that the jury could
have believed that if he had a weapon on him when he was arrested, maybe he was smart enough not
to let the victim see the weapon. See Court Docket No. 13-17, p. 9. However, the undersigned does
not find that Petitioner has met his burden to show that trial counsel was deficient, or that he was in
any way prejudiced by her failure to argue the motion to suppress the weapon.
Relevant evidence is “evidence having any tendency to make the existence of any fact
that is of consequence to the determination of the action more probable or less probable than it would
be without the evidence. See Rule 401, SCRE. “Evidence is relevant if it has a direct bearing upon
and tends to establish or make more or less probable the matter in controversy. See State v. Salley,
727 S.E.2d 740, 744 (S.C. 2012). “Although relevant, evidence may be excluded if its probative
value is substantially outweighed by the danger of unfair prejudice. ...” See Rule 403, SCRE.
“Unfair prejudice means an undue tendency to suggestion decision on an improper basis.” See State
v. Dickerson, 535 S.E.2d 119,123 (S.C. 2000). For example, the South Carolina Court of Appeals
has allowed the admission of a gun into evidence, finding the probative value of the gun substantially
outweighed its prejudicial impact. See State v. Garris, 714 S.E.2d 888, 895 (S.C.Ct.App. 2011);
State v. Spears, 713 S.E.2d 324, 331 (S.C.Ct.App. 2011). Here, the knife at issue in this case was
offered by the State to prove Petitioner possessed a knife consistent with the purported weapon held
48

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 49 of 53

to the victim’s throat. Petitioner has not shown that the weapon was not relevant to the State’s
burden of proof on the weapon and armed robbery charges. To the contrary, the admission of the
knife was directly related to an element of the weapons charge and was not unfairly prejudicial to the
Petitioner. Even so, the claim that Petitioner used a weapon during the robbery was effectively
rebutted at trial and he was found not guilty on that charge.
Therefore, Petitioner has not shown that even if counsel had made a motion to
suppress the weapon, that it would have been granted, or that the outcome of his trial would have
been different. Accordingly, Petitioner has failed to show a substantial issue of ineffective of
assistance of counsel regarding this issue.
Ground Sixteen
In Ground Sixteen, Petitioner contends that his counsel was ineffective for failing to
properly advise him to testify in his own defense. However, the record and evidence support that
Petitioner did not want to testify. Counsel testified that Petitioner told her that he did not want to
testify so the defense would have the last closing argument. See Court Docket No. 13-17, p. 87.
Although this issue was not specifically addressed by the PCR court, the PCR court consistently
found counsel’s testimony credible. Petitioner did not testify at his PCR hearing about this issue.
Additionally, the record further shows that the trial court itself advised Petitioner of
his right to testify, and that Petitioner told the judge under oath that he and his counsel had discussed
the matter, and that he had made the decision not to testify. (R.p. 209). Petitioner also represented
to the Judge that he understood his right to testify, that he did not have any questions about his right
to testify, and that he did not have any hesitancy in his mind about his decision not to testify. (R.p.

49

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 50 of 53

210).13 Petitioner has presented no evidence to contradict his earlier statements made to the trial
court. See Blackledge v. Allison, 431 U.S. 63, 74 (1977)[“Solemn declarations in open court carry
a strong presumption of verity. The subsequent presentation of conclusory allegations unsupported
by specifics is subject to summary dismissal, as are contentions that in the face of the record are
wholly incredible.”](citations omitted). Although Petitioner alleges that his counsel was ineffective
for failing to properly advise him to testify in his own defense, his own statements contradict his
assertions, and there is no evidence in the record to support his allegation. Further, as previously
discussed, based on the evidence of Petitioner’s guilt presented at his trial, Petitioner has not shown
that the outcome of his trial would have been different even if he had testified, nor has he shown
prejudice from his counsel’s actions. Therefore, Petitioner has not shown that any substantial issue
of ineffective assistance of counsel on this basis.

In sum, while ineffective assistance ofPCR counsel can constitute the necessary cause
for overcoming the procedural bar on these issues, as noted, under the first requirement of the
Martinez exception, the Petitioner must first “demonstrate that the underlying ineffective-assistanceof-trial-counsel claim is a substantial one, which is to say that the [petitioner] must demonstrate that
the claim has some merit.” Gray, 526 Fed. Appx. at 333. Petitioner has not shown that any of these
underlying claims, which Petitioner contends that his PCR counsel should have raised, have any
merit. See discussion, supra. Accordingly, Petitioner has failed to establish that his remaining
ineffective assistance of counsel claims in Grounds Ten through Seventeen are substantial ones in

13As Respondent points out, the Petitioner had a lengthy criminal record, with many of his
crimes admissible for impeachment if he chose to testify. (R.p. 270).
50

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 51 of 53

order to be able to proceed on those claims. Gray, 526 Fed. Appx. at 333. Therefore, Petitioner has
failed to show cause for his procedural default on these issues. Rodriguez v. Young, 906 F.2d 1153,
1159 (7th Cir. 1990), cert, denied, 498 U.S. 1035 (1991) [“Neither cause without prejudice nor
prejudice without cause gets a defaulted claim into Federal Court.”].
Finally, to the extent Petitioner is arguing that he is actually innocent, cognizable
claims of “actual innocence” are extremely rare and must be based on “factual innocence not mere
legal insufficiency.” Bousleyv. United States, 523 U.S. 614, 623 (1998); see also Doe v. Menefee,
391 F.3d 147 (2d Cir. 2004). Petitioner has failed to present any new, reliable evidence of any type
that was not presented in any of his prior court proceedings which supports his innocence on the
criminal charges to which he was found guilty. See Schlup v. Delo, 513 U.S. 298, 324 (1995)[to
present a credible claim of actual innocence, a petitioner must “support his allegations of
constitutional error with new reliable evidence-whether it be exculpatory scientific evidence,
trustworthy eyewitness accounts, or critical physical evidence-that was not presented at trial.”]; Doe,
391 F.3dat 161 (quoting Schlup for the evidentiary standard required for a court to consider an actual
innocence claim). Further, Petitioner has also failed to make any showing that a fundamental
miscarriage of justice will occur if these claims are not considered. Wainwright v. Sykes, supra;
Murray v. Carrier, 477 U.S. 478 (1986); Rodriguez, 906 F.2d at 1159 [a fundamental miscarriage of
justice occurs only in extraordinary cases, “where a constitutional violation has probably resulted in
the conviction of one who is actually innocent”](citing Murray v. Carrier, 477 U.S. at 496); Sawyer
v. Whitley, 505 U.S. 333,348 (1992);Bolenderv. Singletary, 898 F.Supp. 876,881 (S.D.Fla. 1995).
Therefore, these issues are procedurally barred from consideration by this Court.

51

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 52 of 53

Conclusion
Based on the foregoing, it is recommended that the Respondent’s motion for summary
judgment be granted, and that the Petition be dismissed, with prejudice.
The parties are referred to the Notice Page attached hereto.

Bristow Marchant
United States Magistrate Judge
December 11, 2018
Charleston, South Carolina

52

9:18-cv-00748-RBH

Date Filed 12/11/18

Entry Number 54

Page 53 of 53

Notice of Right to File Objections to Report and Recommendation

The parties are advised that they may file specific written objections to this Report and
Recommendation with the District Judge. Objections must specifically identify the portions of the
Report and Recommendation to which objections are made and the basis for such objections. “[I]n
the absence of a timely filed objection, a district court need not conduct a de novo review, but instead
must ‘only satisfy itself that there is no clear error on the face of the record in order to accept the
recommendation.’” Diamondv. Colonial Life &Acc. Ins. Co., 416 F.3d 310 (4th Cir. 2005) (quoting
Fed. R. Civ. P. 72 advisory committee’s note).
Specific written objections must be filed within fourteen (14) days of the date of service of
this Report and Recommendation. 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b); see Fed. R. Civ. P.
6(a), (d). Fifing by mail pursuant to Federal Rule of Civil Procedure 5 may be accomplished by
mailing objections to:
Robin L. Blume, Clerk
United States District Court
Post Office Box 835
Charleston, South Carolina 29402
Failure to timely file specific written objections to this Report and Recommendation will
result in waiver of the right to appeal from a judgment of the District Court based upon such
Recommendation. 28 U.S.C. § 636(b)(1); Thomas v. Am, 474 U.S. 140 (1985); Wright v. Collins,
766 F.2d 841 (4th Cir. 1985); United States v. Schronce, 727 F.2d 91 (4th Cir. 1984).

53

Additional material
from this filing is
available in the
Clerk's Office.

